<html>
<title> - CROLEY, SMITH, AND KIAAINA NOMINATIONS</title>
<body><pre>[Senate Hearing 113-141]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 113-141

 
                 CROLEY, SMITH, AND KIAAINA NOMINATIONS

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                                   ON

 THE NOMINATIONS OF DR. STEVEN P. CROLEY TO BE GENERAL COUNSEL OF THE 
    DEPARTMENT OF ENERGY, MR. CHRISTOPHER A. SMITH TO BE ASSISTANT 
 SECRETARY OF ENERGY (FOSSIL ENERGY), AND MS. ESTHER P. KIAAINA TO BE 
         ASSISTANT SECRETARY OF THE INTERIOR FOR INSULAR AREAS

                               __________

                           NOVEMBER 14, 2013


                       Printed for the use of the
               Committee on Energy and Natural Resources



                  U.S. GOVERNMENT PRINTING OFFICE
86-167                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6d0a1d022d0e181e190508011d430e020043">[email&#160;protected]</a>  

               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                      RON WYDEN, Oregon, Chairman

TIM JOHNSON, South Dakota            LISA MURKOWSKI, Alaska
MARY L. LANDRIEU, Louisiana          JOHN BARRASSO, Wyoming
MARIA CANTWELL, Washington           JAMES E. RISCH, Idaho
BERNARD SANDERS, Vermont             MIKE LEE, Utah
DEBBIE STABENOW, Michigan            DEAN HELLER, Nevada
MARK UDALL, Colorado                 JEFF FLAKE, Arizona
AL FRANKEN, Minnesota                TIM SCOTT, South Carolina
JOE MANCHIN, III, West Virginia      LAMAR ALEXANDER, Tennessee
BRIAN SCHATZ, Hawaii                 ROB PORTMAN, Ohio
MARTIN HEINRICH, New Mexico          JOHN HOEVEN, North Dakota
TAMMY BALDWIN, Wisconsin

                    Joshua Sheinkman, Staff Director
                      Sam E. Fowler, Chief Counsel
              Karen K. Billups, Republican Staff Director
           Patrick J. McCormick III, Republican Chief Counsel


                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Croley, Steven P., Nominee to be General Counsel, Department of 
  Energy.........................................................     8
Hirono, Hon. Mazie K., U.S. Senator From Hawaii..................     2
Kiaaina, Esther P., Nominee to be Assistant Secretary for Insular 
  Areas, Department of the Interior..............................    13
Landrieu, Hon. Mary, U.S. Senator From Louisiana.................    16
Murkowski, Hon. Lisa, U.S. Senator From Alaska...................     5
Schatz, Hon. Brian, U.S. Senator From Hawaii.....................     4
Smith, Christopher, Nominee to be Assistant Secretary for Fossil 
  Energy, Department of Energy...................................    10
Stabenow, Debbie, U.S. Senator From Michigan.....................     7
Wyden, Hon. Ron, U.S. Senator From Oregon........................     1

                               APPENDIXES
                               Appendix I

Responses to additional questions................................    39

                              Appendix II

Additional material submitted for the record.....................    48


                 CROLEY, SMITH, AND KIAAINA NOMINATIONS

                              ----------                              


                      THURSDAY, NOVEMBER 14, 2013,

                               U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:39 a.m. in room 
SD-366, Dirksen Senate Office Building, Hon. Ron Wyden, 
chairman, presiding.

 OPENING STATEMENT OF HON. RON WYDEN, U.S. SENATOR FROM OREGON

    The Chairman. The committee will come to order.
    The committee is going to work this morning on 2 matters.
    We're going to conduct a short business meeting to consider 
3 military land withdrawal bills needed to reserve public land 
for 6 military bases. As soon as we have a quorum for action, 
we'll proceed to address each of those matters. None of them 
are controversial. We'll move expeditiously.
    Until we have that quorum, we're going to begin this 
morning with a hearing to consider 3 nominations.
    Dr. Steven Croley, to be the General Counsel of the 
Department of Energy.
    Mr. Christopher Smith, to be an Assistant Secretary of 
Energy for Fossil Energy.
    Ms. Esther Kiaaina, I hope I'm not doing too much violence 
to that.
    Senator Schatz. Mr. Chairman, Kia'aina.
    The Chairman. Kia'aina. Alright. That is the fourth 
possible pronunciation I've been given in the last half an 
hour. We're delighted to have you.
    You'll be an excellent nominee. I'll just put it that way.
    Alright, let us then, we have some introductions that are 
going to begin this morning.
    Why don't we begin with Senator Hirono? I know you have a 
tight time schedule.
    Senator Schatz, would you like to make some introductory 
comments as well?
    Senator Schatz. I defer to Senator Hirono and then we can 
go through the regular order.
    The Chairman. Very good.
    Senator Hirono.

         STATEMENT OF HON. MAZIE HIRONO, U.S. SENATOR 
                          FROM HAWAII

    Senator Hirono. Thank you very much, Senator Schatz.
    Chairman Wyden and members of the committee and of course, 
my colleague from Hawaii, Senator Schatz, thank you very much 
for the opportunity to be here this morning to introduce a very 
well qualified nominee and a person I'm honored to call a 
friend, Esther Kiaaina.
    The Chairman. Kiaaina.
    Senator Hirono. Esther has dedicated herself to public 
service, especially on behalf of the people of Hawaii and the 
Pacific. It is because of her work, her knowledge of the area, 
the issues and the people that her nomination to serve as 
Assistant Secretary for Insular Affairs is so appropriate.
    Regarded in Hawaii for her extensive knowledge of native 
Hawaiian issues, Esther is also respected for her knowledge of 
the entire region from Guam to the freely associated States.
    Hawaii's relationship with our fellow Pacific Island 
territories and nations is strong. Many citizens of the freely 
associated states, the Republic of Palau, the Republic of the 
Marshall Islands, the Federated States of Micronesia reside in 
Hawaii through their respective Nation's compact with the 
United States. As Hawaii has always done, we welcome this new 
influx of cultures and people.
    That is not to say that there have not been some growing 
pains. But legislation, like the Compact Impact Reimbursement 
Act which Esther helped craft has helped ease some of the 
strain.
    Esther also spent time working for the people of Guam 
serving as the Chief of Staff for then Congressman Robert 
Underwood. Here again Esther's knowledge about the culture of 
Guam, its people and its issues were apparent. Navigating the 
complexities of cultural sensitivities while working with the 
Federal bureaucracy on an issue such as land ownership is no 
easy feat. But Esther's understanding of Guam helped to 
shepherd through both the Guam Excess Land Act and later the 
Guam Land Reform Act.
    The former resulted in the returning of 3,200 acres of land 
from the Federal Government to the territory and the later 
guarantees the government of Guam the right of first refusal to 
any Federal excess lands in the territory.
    It may be easy to downplay this understanding of other 
islands, cultures and people as an intrinsic part of anyone 
from Hawaii. Geographically we are a chain of islands, after 
all. Certainly there are some parallels. But I believe and I'm 
confident that the committee will come to see that Esther 
possesses an in-depth knowledge and passion for this region and 
its people that makes her uniquely well qualified and suited 
for this position.
    Thank you again for your latitude and allowing me to speak 
on her nomination. I'm confident that the committee will find 
that Esther truly is the best nominee for guiding our 
relationship with the territories and the independent nations 
of the Pacific.
    Aloha to you, Mr. Chairman and this committee.
    The Chairman. Thank you so much, Senator.
    I noticed you've called our nominee Esther. I was debating 
whether to call her Esther or the nominee, but I believe now I 
can say, Ms. Kiaaina is very lucky to have you in her corner.
    Senator Hirono. As well as Senator Schatz.
    The Chairman. Senator Schatz as well.
    We'll excuse you at this time.
    Senator Hirono. Thank you.
    The Chairman. Alright.
    So let us proceed then with the hearing with respect to our 
nominees. We are still short of a quorum. So let me explain the 
rules of the committee to each of the nominees.
    The rules of the committee which apply to all nominees 
require that they be sworn in connection with their testimony.
    So please rise and raise your right hand.
    Do you solemnly swear the testimony you're about to give to 
the Senate Committee on Energy and Natural Resources shall be 
the truth, the whole truth and nothing but the truth, so help 
you God?
    [A Chorus of I do.]
    The Chairman. You all can be seated.
    Yes, before you begin your statement let me ask 3 questions 
addressed to each nominee before this committee.
    First, will you be available to appear before the committee 
and other congressional committees to represent departmental 
positions and respond to issues of concern to the Congress?
    [A Chorus of I will.]
    The Chairman. Are you aware of any personal holdings, 
investments or interests that could constitute a conflict of 
interest or create the appearance of such a conflict should you 
be confirmed and assume the office to which you've been 
nominated by the President?
    [A Chorus of no.]
    The Chairman. Are you involved or do you have any assets 
held in a blind trust?
    [A Chorus of no.]
    The Chairman. Alright.
    Let me invite the nominees to introduce their family 
members. Then before you all make your opening statements I 
want to recognize our colleague from Hawaii. But please if all 
of you will introduce your family members. That's a tradition 
that we're proud of here at this committee.
    Why don't we begin with you on that, Dr. Croley.
    Mr. Croley. Thank you, Mr. Chairman. I'd like to introduce 
my wife, who is here--from Detroit. I'd also like to 
acknowledge my children: Jack, Anna, Harry and Matt, who are 
not here physically, but are with us virtually.
    The Chairman. Very good.
    Mr. Smith.
    Mr. Smith. Thank you, Mr. Chairman.
    First of all I'd like to introduce and thank my wife, 
Patricia, who is here with us today. I'd also like to introduce 
my 2 children, Andrew and Amanda, 7 and 9, who are also joining 
us.
    I'd like to introduce my mother-in-law, Ms. Yoshea 
Hardening, who is visiting with us.
    I'd also like to introduce, Ms. Talia DeSantacompos, who is 
living with our family for a year. So that's my support 
network.
    The Chairman. Very good. We're glad that they are all here.
    Let us then have any introductions from Ms. Kiaaina.
    Ms. Kiaaina. Mr. Chairman, regrettably my mother, for 
health reasons, was unable to be here as well as for my 
siblings, who help to take care of her. But I'm heartened to 
have a lot of friends from Hawaii, the Pacific and Washington, 
DC here today to support me. I do know that my family is 
watching via the Internet.
    [Laughter.]
    Ms. Kiaaina. So I wanted to say, hello and good morning at 
4:30 in the morning Hawaii Time.
    The Chairman. Very good.
    Let's recognize Senator Schatz and then I want to recognize 
my friend and colleague, the Ranking Minority Member, Senator 
Murkowski.

          STATEMENT OF HON. BRIAN SCHATZ, U.S. SENATOR
                          FROM HAWAII

    Senator Schatz. Thank you, Mr. Chairman.
    It gives me great pleasure and pride to introduce a highly 
qualified nominee for Assistant Secretary for Insular Affairs 
and my friend, Esther Kiaaina. I'd like to welcome Esther and 
thank her for appearing before the committee. I cannot think of 
a better candidate for this position.
    Esther brings not only a deep knowledge of the territories 
and freely associated states to Insular Affairs, but also 
practical, on the ground experience. She knows the places, the 
people and the issues.
    All of the United States territories and freely associated 
states, but perhaps especially those in the Pacific, have a 
unique strategic importance to our country. I'm confident that 
Esther's leadership will help to deepen and improve the 
connection between these special places and the rest of the 
country. I'm glad to see Congressional leadership from 
throughout the Pacific region here to support Ms. Kiaaina's 
nomination.
    With nearly 2 decades worth of experience on Capitol Hill 
as a Chief of Staff to former U.S. Representative Case and 
Robert Underwood and as Legislative Assistant to former Senator 
Daniel Akaka. Esther was instrumental in the passage of 
legislative initiatives impacting native Hawaiians, U.S. 
territories and the freely associated states. As Senator Hirono 
noted these include the Compact Impact Reimbursement Act and 
several bills, especially important to Guam, such as the Guam 
Land Return Act.
    Esther currently, skillfully, serves as the First Deputy 
Director of the Hawaii Department of Land and Natural Resources 
where she oversees the management of 1.3 million acres of 
public lands and near shore ocean resources in the State of 
Hawaii. In our State Esther has worked to protect watersheds 
and threatened and endangered species, control invasive 
species, preserve land and oceans and strengthen public/private 
and enforcement partnerships.
    Esther graduated from the Kamehameha Schools in Honolulu, 
earned her BA in Political Science and International Relations 
from USC and a JD from the George Washington University Law 
School. She also attended the Johns Hopkins University's School 
of Advanced International Studies.
    All of us in Hawaii are very, very proud of her.
    If confirmed, I know she will use her experience and 
expertise to lead the Department of Interior's efforts to 
coordinate Federal policy for Guam, the Commonwealth of the 
Northern Mariana Islands and the U.S. Virgin Islands and 
American Samoa. She would also have the responsibility to 
administer and to oversee Federal assistance to the Federated 
States of Micronesia, the Republic of the Marshall Islands and 
the Republic of Palau.
    I'm deeply thankful for Esther's service and look forward 
to her confirmation. She is the most qualified candidate for 
this position. She will be one of the highest ranking native 
Hawaiian women in the Administration as well as one of the 
highest ranking people from Hawaii in this Administration.
    Once confirmed Esther will hold a top leadership position 
on policy and one of the largest agencies in the executive 
branch.
    I look forward to today's hearing. As this position has 
gone unfilled for more than 1 year, I expect and hope for an 
expeditious and efficient confirmation process.
    Thank you, Mr. Chairman and thank you Ms. Kiaaina.
    The Chairman. Thank you, Senator Schatz.
    Suffice it to say, Ms. Kiaaina, you know that Senator 
Schatz is doing important work. So he'll be an important 
partner for you. He chairs our Water and Power Subcommittee 
doing important legislation, the Hawaii homes legislation. So I 
know he's looking forward to having you in this position, as am 
I.
    So let us now hear from Senator Murkowski for her opening 
statement.
    For colleagues who have just come in, we're, even by Senate 
standards, a little hectic this morning. When we have a quorum 
we're going to have a short business meeting to handle 3 pieces 
of legislation which are non-controversial. Until we have a 
quorum we're going to proceed with our nominations.
    At this point let's hear from Senator Murkowski.

        STATEMENT OF HON. LISA MURKOWSKI, U.S. SENATOR 
                          FROM ALASKA

    Senator Murkowski. Thank you, Mr. Chairman. I apologize to 
the committee for my tardy arrival this morning. But thank you 
for joining us this morning to each of the nominees that are 
before us.
    Before I make comments as to our nominees, I want to 
briefly make a statement about the legislation that will take 
up, hopefully, when we get a quorum here.
    But I am pleased that we have been able to schedule a 
markup to consider several military withdrawal bills. These 
withdrawals of our public lands are critical to support 
military readiness and can only be accomplished through 
Congressional action. I'm pleased that this committee will have 
done its work on these withdrawals effectively and efficiently.
    We know that the National Defense Authorization bill is 
going to be coming to the Floor soon, hopefully very, very 
soon. This work product can be included within that. Many of 
these land withdrawals are expiring next year. So it's 
important that we act expeditiously as a committee. So I 
appreciate your willingness to do this, Mr. Chairman.
    I would like to add my welcome to each of our nominees here 
this morning. I'd also like to acknowledge the presence here 
this morning of Congressman Sablan as well as Congresswoman 
Bordallo, always nice to have you before the committee here.
    Mr. Croley, you are a noted legal scholar, counselor. 
You've had an opportunity that has been afforded very few 
lawyers. That is the fact that you've provided counsel to the 
President in the White House.
    It is my hope that you will bring that experience to bear 
as you move to become the Senior Legal Officer of the 
Department of Energy and the leader of many, many lawyers in 
the General Counsel's office there. It's no secret that I'm of 
the view that adherence to the rule of law, close attention to 
the requirements of the applicable statutes and good practical, 
legal advice are absolutely necessary in all of our agencies. 
DOE is certainly no exception there.
    So whether the subject is Loan Guarantee Program or perhaps 
the licensing of a repository for spent nuclear fuel, solid, 
legal advice, well within the main stream, I think, serves the 
Department well. So I'm eager to hear about your plans and 
aspirations for refinement in that regard.
    Mr. Smith, welcome back to the committee to you. I have 
appreciated your preparation, your candor in prior appearances 
before the committee. No doubt those good habits matured at 
West Point and grew even stronger during your career in the 
private sector and in government.
    I'm counting on you for your perspective. I hope that you 
will be a vigorous advocate for affordable and reliable energy 
from sources that are far too often, perhaps maligned. I think 
you have a challenging position at this time especially now 
when many want to count out energy from hydrocarbons just as we 
are unlocking their abundance and improving their environmental 
performance. I think dramatically.
    So, I'm expecting you to call the issues within your 
portfolio as the evidence dictates and to stand up and be 
counted within DOE, across government and beyond.
    Finally, Ms. Kia--now I'm going to say it because I can.
    [Laughter.]
    Senator Murkowski. Kiaaina. Key Ianna.
    Ms. Kiaaina. Yes.
    Senator Murkowski. Key Ianna. I had to think about it. All 
the vowels.
    Senator Franken. If the Ranking Member hadn't been late, 
you would have known that.
    [Laughter.]
    Senator Murkowski. I understand that. That's why I insisted 
on doing it myself rather than asking for help because I know 
that it was a subject of discussion.
    [Laughter.]
    Senator Murkowski. We will never forget your name, Esther.
    [Laughter.]
    The Chairman. Sticking up for Senator Murkowski, I've been 
trying and I was here on time.
    [Laughter.]
    Senator Murkowski. Kiaaina. Ms. Kiaaina. Welcome back to 
the Senate where you have served for many years on the staff of 
our distinguished former colleague, Senator Akaka. We miss him. 
Thank you for your years of service with him.
    As I believe you know our committee has a long, long 
tradition of meeting our responsibilities with respect to our 
insular affairs in a non-partisan way. We look forward to 
continuing that time tested approach on your watch. I'll be 
listening carefully as you outline your qualifications and your 
priorities.
    But it's important to hear from our colleague on the 
committee, Senator Schatz. I passed Senator Hirono in the 
hallway and she said she had just come from this hearing to 
testify on your behalf. So I know you have good, strong support 
from friends and family and supporters back home. So welcome to 
you, aloha.
    With that, Mr. Chairman, thank you.
    The Chairman. As we search for a quorum let's have Senator 
Stabenow make an introduction of Mr. Smith. Then perhaps----
    Senator Stabenow. Actually Dr. Croley.
    The Chairman. Oh, Dr. Croley, excuse my manners.
    Senator Stabenow. Yes. Yes. Yes.
    The Chairman. Hopefully the other 2 will appear.

 STATEMENT OF HON. DEBBIE STABENOW, U.S. SENATOR FROM MICHIGAN

    Senator Stabenow. Good morning. Yes and welcome to 
everyone. But I have to pull my--talk about our wonderful 
nominee for General Counsel, Department of Energy from 
Michigan. Actually Dr. Croley was born and raised in Dewitt, 
Michigan which is just a few miles north of where I live. So 
it's great to see you.
    Mr. Croley. Thank you.
    Senator Stabenow. As well as all the nominees.
    But Mr. Chairman, Dr. Croley is a graduate of the 
University of Michigan and Yale Law School, earned his PhD in 
politics from Princeton University. I have to say it's a very 
historic moment because I have 2 degrees from the rival 
institution of Michigan State University. I'm still willing to 
be here today introducing, a University of Michigan graduate.
    [Laughter.]
    Senator Stabenow. So very proud.
    Mr. Croley. Thank you.
    Senator Stabenow. He earned his prestigious clerkship on 
the U.S. Court of Appeals for the DC Circuit before returning 
home to Michigan in 1993 to become a law professor at the 
University of Michigan. He served 4 years as a Special 
Assistant U.S. Attorney for the Eastern District of Michigan 
before coming to work for the executive branch in 2010. Started 
working on regulatory issues for the White House Domestic 
Policy Counsel and became a Senior Counsel to the President. 
He's currently at the White House Counsel's Office as Deputy 
Assistant to the President and Deputy Counsel to the President.
    Mr. Chairman, he is recognized for his distinguished 
scholarship and deep knowledge of regulatory and administrative 
law by the American Bar Association. I do have to also say he 
is a very smart man, who married a very smart woman, who is now 
Associate Justice of the Michigan Supreme Court. So this is a 
very talented family and very respected family.
    I strongly support Dr. Croley's nomination and confirmation 
as well as our other 2 nominees.
    So thank you for letting me say hello from Michigan.
    Mr. Croley. Thank you very much.
    The Chairman. Very good. I saw a little bit of the 
Michigan/Michigan State back and forth a week ago when I was 
with Senator Stabenow. So you're lucky to have her in your 
corner.
    So let's at this point recognize each of you to make your 
opening statements. When we do have a quorum which you could 
probably tell we are feverishly working to produce, we'll vote 
on the business matters and then come back to your nominations.
    But we'll make your prepared statements a part of the 
record in their entirety.
    Why don't we just begin with you, Dr. Croley.

 TESTIMONY OF STEVEN P. CROLEY, NOMINEE TO BE GENERAL COUNSEL, 
                      DEPARTMENT OF ENERGY

    Mr. Croley. Thank you. Chairman Wyden, Ranking Member 
Murkowski, distinguished members of the committee, thank you 
all very much for the opportunity to appear before you here 
today. It is a great honor.
    First I would like to thank President Obama for nominating 
me to serve as General Counsel of the U.S. Department of 
Energy. If confirmed I would work very hard to justify the 
confidence he has placed in me for that role.
    I would like also to thank Secretary Moniz for his 
confidence too in asking me to serve as his counsel. I would be 
privileged to advise him and his team as they work to ensure 
the Nation's energy supply, to support our economic growth and 
safeguard our national security.
    I would also like to thank my wife, Bridget, who is here 
this morning, my children Jack, Anna, Harry and Matt, my 
parents Harold and Martha and my friends and colleagues for 
their love, their support and their good example. Without the 
encouragement of my family I would not be here today.
    Mr. Chairman, as you know the General Counsel is the 
principle legal officer of the Energy Department. The General 
Counsel provides legal advice and counsel to the Secretary and 
his colleagues, represents the Department before other Federal 
agencies and works with the Department of Justice to represent 
the Energy Department in the Federal courts. Fundamentally, the 
General Counsel is responsible for ensuring that the Department 
operates in full compliance with the law.
    Of course, the General Counsel does not do these things 
alone. The Department has a dedicated and knowledgeable staff 
of attorneys. If confirmed I would look forward to working with 
them, learning from them and drawing on their deep expertise.
    As Senator Stabenow mentioned, I grew up in a small town in 
mid-Michigan and attended college at the University of 
Michigan. After graduation I attended the Yale Law School. 
Following a judicial clerkship I graduated from the Graduate 
School at Princeton University.
    In 1993 I returned to my home State to join the faculty at 
the University of Michigan Law School. I was subsequently 
promoted to professor and later named the Harry Burns Hutchins 
Collegiate Professor of Law.
    From 2003 to 2006 I served as the Law School's Associate 
Dean for Academic Affairs.
    In 2010 I was elected in the American Law Institute.
    I did not attend law school in order to become a scholar, 
however, I always aspired to serve others and serve the public.
    After earning tenure in 1998 I began representing 
individual clients in various civil and criminal matters in 
State and Federal court.
    In 2006 I became a Special Assistant U.S. Attorney in the 
Eastern District of Michigan.
    Until 2010 I represented the United States in a wide 
variety of affirmative and defensive civil litigation. It is an 
experience that gave me invaluable insight into our Federal 
courts. It was a great privilege to represent the interests of 
the United States in court.
    In 2010 I joined the Domestic Policy Counsel at the White 
House where I served as Special Assistant to the President for 
Justice and Regulatory Policy.
    In 2011 I joined the Office of White House Counsel as 
Senior Counsel to the President.
    In 2012 I was named Deputy Counsel to the President.
    As Deputy White House Counsel I managed a team of lawyers 
to work on the full range of domestic legal issues. I have also 
worked closely with the Department of Justice and the Office of 
Management and Budget. Energy issues have been one of my own 
areas of interest. My experience as Deputy White House Counsel 
would serve me well in assisting Secretary Moniz and other 
clients at the Department of Energy.
    Having said all that no one does his or her best work 
alone, at least I did not. I am a strong believer in team work. 
If confirmed I would depend not only on my colleagues at the 
Energy Department, but also seek opportunities to work closely 
with this committee. I would strive to prove myself collegial, 
pragmatic and tireless to you and your staffs.
    Mr. Chairman, thank you again for the opportunity to appear 
before you. I look forward to answering any questions.
    [The prepared statement of Mr. Croley follows:]

Prepared Statement of Steven P. Croley, Nominee to be General Counsel, 
                          Department of Energy

    Chairman Wyden, Ranking Member Murkowski, distinguished Members of 
the Committee, thank you all very much for the opportunity to appear 
before you today. It is a great honor.
    First, I would like to thank President Obama for nominating me to 
serve as General Counsel of the U.S. Department of Energy. If 
confirmed, I would work very hard to justify the confidence he has 
placed in me to serve in that role.
    I also want to thank Secretary Moniz, for his confidence too, in 
asking me to serve as his counsel. I would be privileged to advise him 
and his team as they work to ensure the Nation's energy supply, support 
our economic growth, and safeguard our national security.
    I would also like to thank my wife, Bridget, my children, Jack, 
Anna, Harry, and Matt, my parents Harold and Martha, and my friends and 
colleagues for their love, support, and good example. Without the 
encouragement of my family, I would not be here today.
    Mr. Chairman, as you know, the General Counsel is the principal 
legal officer of the Energy Department. The General Counsel provides 
legal advice and counsel to the Secretary and his colleagues, 
represents the Department before other Federal agencies, and works with 
the Department of Justice to represent the Energy Department in the 
federal courts. Fundamentally, the General Counsel is responsible for 
ensuring that the Department operates in full compliance with the law. 
Of course, the General Counsel does not do all of this alone; the 
Department has a dedicated and knowledgeable staff of attorneys. If 
confirmed, I would look forward to working with them, learning from 
them, and drawing on their deep expertise.
    I grew up in a small town in mid-Michigan, and attended college at 
the University of Michigan. After graduation, I attended the Yale Law 
School. Then, following a judicial clerkship with the Honorable Stephen 
F. Williams on the U.S. Court of Appeals for the District of Columbia 
Circuit, I attended graduate school at Princeton University, where I 
earned a Ph.D. in Politics. In 1993, I returned to my home State to 
join the faculty at the University of Michigan Law School. I was 
subsequently promoted to Professor, and later named the Harry Burns 
Hutchins Collegiate Professor of Law. From 2003 to 2006, I served as 
the Law School's Associate Dean for Academic Affairs. In 2010, I was 
elected into the American Law Institute. In 2004, I received the 
American Bar Association's award for Distinguished Scholarship in 
Administrative Law.
    I did not attend law school in order to become a scholar, however. 
I always aspired to serve others, and serve the public. After earning 
tenure in 1998, I began representing individual clients in various 
civil and criminal matters in state and federal court. In 2006, I 
became a Special Assistant U.S. Attorney in the Eastern District of 
Michigan. Until 2010, I represented the United States in affirmative 
and defensive civil litigation. Handling discovery, dispositive 
motions, trials, and appeals in civil fraud cases, constitutional 
cases, environmental matters, forfeiture claims, immigration cases, and 
tort claims, among others, I gained invaluable litigation experience. 
It was a great privilege to represent the interests of the United 
States in court.
    In 2010, I joined the Domestic Policy Council at the White House, 
where I served as Special Assistant to the President for Justice and 
Regulatory Policy. In 2011, I joined the Office of White House Counsel 
as a Senior Counsel to the President. In 2012, I was named Deputy 
Counsel to the President. As Deputy White House Counsel, I have managed 
a team of lawyers who work on the full range of domestic legal issues. 
I have also worked closely with the Department of Justice and the 
Office of Management and Budget. Energy issues have been one of my own 
areas of focus. My experience as Deputy White House Counsel would serve 
me well in assisting Secretary Moniz and other clients at the 
Department of Energy.
    Yet, no one does his or her best work alone; at least I do not. I 
am a strong believer in teamwork. If confirmed, I would not only depend 
on my colleagues at the Department, but also seek opportunities to work 
closely with this committee. I would strive to prove myself collegial, 
pragmatic, and tireless to you and your staffs.
    Mr. Chairman, thank you again for the opportunity to appear before 
you. I look forward to answering any questions you may have.

    The Chairman. Dr. Croley, thank you.
    Mr. Smith.

    TESTIMONY OF CHRISTOPHER SMITH, NOMINEE TO BE ASSISTANT 
       SECRETARY FOR FOSSIL ENERGY, DEPARTMENT OF ENERGY

    Mr. Smith. Thank you, Chairman.
    Chairman Wyden, Ranking Member Murkowski and members of the 
committee, I appreciate this opportunity to appear before you 
here today as President Obama's nominee for Assistant Secretary 
for Fossil Energy at the United States Department of Energy.
    I would like to begin my statement by expressing my 
gratitude to the President for the confidence that he has 
demonstrated in me in this nomination. I'm honored. Should I be 
confirmed I will do my best to meet that confidence.
    I would also like to thank Secretary Ernie Moniz for his 
support and for his leadership of the Department of Energy.
    I also thank my wife, Patricia and my children, Andrew and 
Amanda. Their support and encouragement make it possible for me 
to spend the long hours and do the hard work that's required to 
serve the American people.
    Finally, Mr. Chairman, I want to recognize my parents, 
Raymond Clyde Smith, Jr., originally of Anderson, Texas and Sue 
Ann Smith, originally of Belton, Texas, who are both here with 
us this morning. I am sitting here today because of their 
example and support throughout my life.
    Mr. Chairman, growing up in Fort Worth, Texas, the son of a 
veteran, I was taught early on the importance of duty and 
service to my country. That led me to seek an appointment to 
the United States Military Academy at West Point where I 
studied engineering management and mechanical engineering. Upon 
graduating from West Point I had the privilege of serving as an 
army combat engineer in the second infantry division and the 
25th infantry division.
    I began my post military career in finance holding 
positions with Citibank and with JP Morgan in New York City and 
in London.
    Working in England afforded me the opportunity to study at 
Cambridge University where I received a Master of Business 
Administration degree.
    Subsequently I worked with Chevron where I was engaged in 
business development and natural gas marketing. During this 
time I lived for 3 years in Bogota, Columbia where I initiated 
negotiations on the first ever gas pipeline between Columbia 
and Venezuela.
    In 2009, after 11 years in the oil and gas industry, I was 
asked to serve as Deputy Assistant Secretary for oil and 
natural gas in the Department of Energy's Office of Fossil 
Energy. In this position I led the Department's oil and gas 
programs including research and development, policy analysis 
and liquefied natural gas import and export licensing.
    This truly has been an eventful period in our Nation's 
history with respect to domestic oil and gas development. In 
2010 when the Deep Water Horizon oil spill occurred off the 
coast of Louisiana in the Gulf of Mexico I was appointed as the 
designated Federal official for the Commission that President 
Obama established to investigate the root causes of that spill. 
In addition I led the multi-agency effort to coordinate 
research on the sustainable development of shale gas and tight 
oil resources.
    In February of this year, I was named Principle Deputy 
Assistant Secretary for Fossil Energy. Since then I have also 
served as the Acting Assistant Secretary managing the Office of 
Fossil Energy's programs and day to day operations.
    Mr. Chairman, we live in an exciting time. The development 
of our Nation's energy resources is reaping benefits that were 
not imagined just a few short years ago. We have before us an 
opportunity to invest, to innovate, to create jobs and to 
support energy security all the while addressing climate change 
and reducing greenhouse gas emissions. Accomplishing this will 
require us to harness all of our sources of domestic energy. 
The Office of Fossil Energy has played and will continue to 
play an important role in meeting that challenge.
    I believe that my background, experience and commitment 
have prepared me to lead the Office of Fossil Energy during 
this particularly critical time. I welcome the opportunity to 
continue my service to the Nation as Assistant Secretary.
    If confirmed I pledge to work closely with this committee 
and others in Congress to ensure that our Nation's abundant 
energy resources are developed in a way that is sustainable and 
will strengthen our economy.
    Mr. Chairman, I thank you again for the opportunity to 
appear before you here today. I look forward to answering any 
questions that you or the committee may have.
    Thank you.
    [The prepared statement of Mr. Smith follows:]

   Prepared Statement of Christopher Smith, Nominee to be Assistant 
           Secretary for Fossil Energy, Department of Energy

    Chairman Wyden, Ranking Member Murkowski, members of the Committee: 
I appreciate the opportunity to appear before you today as President 
Obama's nominee for Assistant Secretary for Fossil Energy at the United 
States Department of Energy.
    I would like to begin my statement by expressing my gratitude to 
the President for the confidence in me that he has demonstrated in this 
nomination. I am honored, and--should I be confirmed--I will do my best 
to meet that confidence.
    I would also like to thank Secretary Moniz for his support and for 
his leadership of the Department of Energy.
    I also thank my wife, Patricia, and my children, Andrew and Amanda. 
Their support and encouragement make it possible for me to spend the 
long hours and do the hard work required to serve the American people.
    And finally, Mr. Chairman, I want to recognize my parents, Mr. 
Raymond Clyde Smith Jr, originally of Anderson, Texas, and Mrs. Sue Ann 
Smith, originally of Belton Texas, who both are here this morning. I am 
sitting here today because of their example and support throughout my 
life.
    Mr. Chairman, growing up in Fort Worth, Texas, the son of a 
veteran, I was taught early on the importance of duty and service to my 
country. That commitment to service and duty led me to seek an 
appointment to the United States Military Academy at West Point, where 
I studied engineering management and mechanicalengineering. Upon 
graduating from West Point, I had the privilege of serving as an Army 
combat engineer in the 2nd Infantry Division and the 25th Infantry 
Division.
    I began my post-military career in finance, holding positions with 
Citibank and J.P. Morgan in New York City and London. Working in 
England afforded me the opportunity to study at Cambridge University, 
where I received a Master of Business Administration degree. 
Subsequently, I accepted a position with Texaco (which was later 
acquired by Chevron), where I was engaged in business development and 
natural gas marketing. During this time, I worked for three years in 
Latin America, where I initiated negotiations on the first-ever gas 
pipeline between Colombia and Venezuela.
    In 2009, after 11 years in the oil and gas industry, I was asked to 
serve as Deputy Assistant Secretary for Oil and Natural Gas in the 
Department of Energy's Office of Fossil Energy. In this position, I was 
responsible for administering domestic and international oil and gas 
programs, including research and development, policy analysis, and 
liquefied natural gas import and export licensing.
    This has been an eventful period with respect to domestic oil and 
gas development. In 2010, when the Deepwater Horizon oil spill occurred 
off the coast of Louisiana in the Gulf of Mexico, I was appointed as 
the Designated Federal Official for the commission that President Obama 
established to investigate the root causes of the spill. In addition, I 
led the multi-agency effort to coordinate research on the sustainable 
development of shale gas and tight oil resources.
    In February of this year, I was named Principal Deputy Assistant 
Secretary for Fossil Energy. Since then, I have also served as acting 
Assistant Secretary, managing the Office of Fossil Energy's programs 
and day-to-day operations.
    Mr. Chairman, we live in an exciting time. The development of our 
nation's energy resources is reaping benefits that were not imagined a 
few short years ago. We have before us an opportunity to invest, to 
innovate, to create jobs and support energy security, all the while 
addressing climate change by reducing greenhouse gas emissions. 
Accomplishing this will require us to harness all of our sources of 
domestic energy. The Office of Fossil Energy has played--and will 
continue to play--an important role in meeting that challenge.
    I believe my background, experience and commitment have prepared me 
to lead the Office of Fossil Energy during this particularly critical 
time, and I welcome the opportunity to continue my service to the 
nation as Assistant Secretary. If confirmed I pledge to work closely 
with this committee and others in the Congress to ensure that our 
nation's abundant energy resources are developed in a way that is 
sustainable and that will strengthen our economy.
    Mr. Chairman, thank you again for the opportunity to appear before 
you today. I look forward to answering any questions you and the 
committee may have.

    The Chairman. Thank you very much, Mr. Smith.
    We're calling some audibles here of colleagues in terms of 
how we might have a quorum because we are now told that the 
noon vote we were contemplating doing on the nominees off the 
Floor. But it sounds like it's going to be a voice vote. So I 
think if colleagues can stay another 5 minutes which should 
allow us to hear from Ms. Kiaaina, then we could have a 
decision one way or another about how to proceed.
    So let's hear from our nominee and then for colleagues who 
have been gracious enough to come and are juggling in 5 minutes 
we'll announce how we're going to have our vote on our business 
meeting.
    Please.

    TESTIMONY OF ESTHER P. KIAAINA, NOMINEE TO BE ASSISTANT 
    SECRETARY FOR INSULAR AREAS, DEPARTMENT OF THE INTERIOR

    Ms. Kiaaina. Aloha Mai Kakou, Chairman Wyden, Ranking 
Member Murkowski and committee members. It is an honor to be 
before your committee as President Obama's nominee for 
Assistant Secretary of Insular Affairs at the Department of the 
Interior.
    My name is Esther Puakele Kiaaina from Nanakuli, Oahu. 
While my parents are originally from Hawaii I was born at the 
U.S. Naval Hospital on the island of Guam as my father worked 
for the U.S. Navy in a civilian capacity. My initial years were 
spent in the village of Asan where I lived right across from 
Asan Beach which was the location where the Third Marine 
Division landed during the liberation of Guam from enemy forces 
during World War II.
    My family and I then moved to the village of Mangilao near 
the University of Guam. I am a proud graduate of San Vicente 
elementary and junior high school. These formative years were 
some of the best years of my life.
    I still remember with fondness and gratitude the guidance 
and support of the School of Sisters of Notre Dame, who helped 
to shape my views of the world. These nuns were Sister Mary 
Bernard, Sister Mary Joseph, Sister Mary Juan, Sister Fidelis 
and Sister Rosine. Si Yu'us Ma'ase sisters for all that you 
have done for me.
    They led me to believe that the world was full of 
opportunities and allowed me to dream through our lessons on 
U.S. history of visiting Washington, DC 1 day to learn about 
what our founding fathers fought for and why democracy was so 
important to our Nation and the world.
    Apart from learning about Chamorro culture while growing up 
on Guam, my family always had close ties to the Micronesian 
community as my parents owned and operated a business that was 
one of the larger employees of the Micronesian communities, 
especially the Chuukese. Trying to eke out a living for 
themselves or their families we felt our employee's challenges 
and we felt their dreams and aspirations. I could not have 
envisioned the opportunity of being here today to be considered 
for a post that will oversee the coordination of Federal policy 
and financial assistance toward the U.S. territories and freely 
associated states and to give back to a region that has been so 
good to me and my family.
    Of course, I would not be here without the values of 
respect and hard work of my parents and their sacrifice to send 
me to Hawaii for high school, college in California and Japan 
and graduate and law school in Washington, DC.
    I was also fortunate to have a successful career on Capitol 
Hill starting off as volunteer intern for Senator Daniel Inouye 
then working my way up to Legislative Assistant for Senator 
Daniel Akaka and Chief of Staff for Congressman Robert 
Underwood and Ed Case. During my Congressional career I worked 
specifically on issues for the U.S. territories and freely 
associated states and worked with the Senate Energy and Natural 
Resources and the House Resources Committees.
    Laws or programs that I worked on included the Guam Land 
Return Act, the Compact Impact Reimbursement Act, the Brown 
Tree Snake Control and Eradication Act, the Guam War Claims 
Review Commission Act, the Guam Foreign Investment Equity Act, 
the inclusion of the territories in the new markets tax 
initiative, the inclusion of Pacific Islanders, including 
citizens of the freely associated states in the Gates 
Millennium Scholarship program and the establishment of Asian 
and Pacific Islander higher education serving institutions.
    My current job as a First Deputy for Hawaii's Department of 
Land and Natural Resources has also afforded me an opportunity 
to better understand Hawaii's role in working with the insular 
areas on collaborative efforts on issues such as climate 
change, invasive species and coral reef protection. Most 
recently we were pleased to sign on to the Majuro Declaration 
which aims to intensify efforts to prepare for and adapt to the 
intensifying impacts of climate change.
    I believe I have a good understanding of the continuing 
need to strengthen bilateral, Federal relationships with each 
jurisdiction, promote economic development, increase government 
efficiency and transparency, foster sound natural resources 
management practices, advance alternative energy goals and 
improve quality of life issues.
    Finally, I have appreciated the opportunity to meet with 
the members of this committee and their staff while I've been 
in town and enjoyed discussing issues impacting these 
jurisdictions including but not limited to economic 
development, climate change, energy costs, immigration and 
compact impacts and authorizing the financial agreement with 
Palau. Should I be confirmed as Assistant Secretary for Insular 
Affairs I commit to working to advance these issues in concert 
with island leaders, the Congressional Committees of 
jurisdiction, Interior's leadership team and other Federal 
agencies.
    I appreciate this opportunity to share my statement.
    Mahalo Nui Loa.
    I look forward to answering any questions.
    [The prepared statement of Ms. Kiaaina follows:]

   Prepared Statement of Esther P. Kiaaina, Nominee to be Assistant 
        Secretary for Insular Areas, Department of the Interior

    Chairman Wyden, Ranking Member Murkowski, and Committee Members. It 
is an honor to be before your committee as President Obama's nominee 
for Assistant Secretary of Insular Areas at the Department of the 
Interior.
    I regret that my mother, due to health reasons, is unable to be 
with me today, as well as my siblings who help to take care of her. I 
know they are here in spirit. I am heartened to have my extended family 
of friends from Hawaii, the Pacific, and Washington, D.C., here to 
support me today.
    My name is Esther Puakela Kia'aina from Nanakuli, Oahu. While my 
parents are originally from Hawaii, I was born at the U.S. Naval 
Hospital on the island of Guam as my father worked for the U.S. Navy in 
a civilian capacity. My initial years were spent in the village of 
Asan, where I lived right across from Asan Beach, which was the 
location where the 3rd Marine Division landed during the liberation of 
Guam from enemy forces during World War II.
    My family and I then moved to the village of Mangilao near the 
University of Guam. I am a proud graduate of San Vicente Elementary and 
Junior High School. Those formative years were some of the best years 
of my life. I still remember with fondness and gratitude the guidance 
and support of the Franciscan nuns who helped to shape my views of the 
world. These nuns were Sister Mary Bernard, Sister Mary Joseph, Sister 
Mary Juan, Sister Fidelis, and Sister Rosine. Si Yu'us Ma'ase sisters 
for all that you have done for me.
    They led me to believe that the world was full of opportunities and 
allowed me to dream-- through our lessons on U.S. history-- of visiting 
Washington, D.C. one day to learn about what our founding fathers 
fought for and why democracy was so important to our nation and the 
world.
    Apart from learning about Chamorro culture while growing up on 
Guam, my family always had close ties to the Micronesian community as 
my parents owned and operated a business that was one of the larger 
employers for the Micronesian communities, especially the Chuukese. 
Trying to eke out a living for themselves or their families, we felt 
our employee's challenges and we felt their dreams and aspirations.
    I could not have envisioned the opportunity of being here today to 
be considered for a post that will oversee the coordination of federal 
policy and financial assistance toward the U.S. territories and freely 
associated states, and to give back to a region that has been so good 
to me and my family.
    Of course, I would not be here without the values of respect and 
hard work of my parents and their sacrifice to send me to Hawaii for 
high school, college in California and Japan, and graduate and law 
school in Washington, D.C.
    I was also fortunate to have a successful career on Capitol Hill, 
starting off as a volunteer intern for Senator Daniel Inouye, then 
working my way up to Legislative Assistant for Senator Daniel Akaka, 
and Chief of Staff for Congressmen Robert Underwood and Ed Case.
    During my Congressional career, I worked specifically on issues for 
the U.S. Territories and Freely Associated States and worked with the 
Senate Energy and Natural Resources and the House Resources Committees.
    Laws or programs that I worked on included the: the Guam Land 
Return Act, the Compact-Impact Reimbursement Act, the Brown Tree Snake 
Control and Eradication Act, the Guam War Claims Review Commission Act, 
the Guam Foreign Investment Equity Act, the inclusion of the 
territories in the New Markets Tax Initiative, the inclusion of Pacific 
Islanders, including citizens of the Freely Associated States, in the 
Gates Millennium Scholarship Program, and the establishment of Asian 
and Pacific Islander Higher Education Serving Institutions.
    My current job as the First Deputy for Hawaii's Department of Land 
and Natural Resources has also afforded me an opportunity to better 
understand Hawaii's role in working with the insular areas on 
collaborative efforts on issues such as climate change, invasive 
species, and coral reef protection. Most recently, we were pleased to 
sign on to the Majuro Declaration, which aims to intensify efforts to 
prepare for, and adapt to, the intensifying impacts of climate change.
    I believe I have a good understanding of the continuing need to 
strengthen bilateral federal relationships with each jurisdiction, 
promote economic development, increase government efficiency and 
transparency, foster sound natural resources management practices, 
advance alternative energy goals, and improve quality of life issues.
    Finally, I have appreciated the opportunity to meet with the 
Members of this committee and their staff while I've been in town, and 
enjoyed discussing issues impacting the U.S. territories, and the 
freely associated sates, including, but not limited to economic 
development, climate change, energy costs, immigration and compact 
impacts, and authorizing the financial agreement with Palau.
    Should I be confirmed as Assistant Secretary for Insular Areas, I 
commit to working to advance these issues in concert with island 
leaders, the Congressional committees of jurisdiction, Interior's 
leadership team, and other federal agencies.
    I appreciate this opportunity to share my statement.

    The Chairman. Thank you very much, Ms. Kiaaina.
    I've now been advised by Senator Schatz that we've got it 
right.
    So Senator Landrieu would like to make a couple of quick 
comments. We're one short for purposes of a quorum. With a 
little luck we're going to vote momentarily.
    So, Senator Landrieu.

         STATEMENT OF HON. MARY LANDRIEU, U.S. SENATOR 
                         FROM LOUISIANA

    Senator Landrieu. Thank you, Mr. Chairman. I just want to 
give my full support for these 3 nominees and they are highly 
qualified. I know they'll bring great leadership for our 
country and already have.
    I just wanted to put one comment briefly in the record and 
a full statement regarding Mr. Smith. His background and his 
understanding of the really importance and promise of exports 
of liquefied natural gas that help us to create jobs and 
economic opportunity here at home in the United States and the 
great promise of supporting this ongoing real and exciting 
manufacturing renaissance that's happening in America.
    In addition the benefit of influencing geopolitical 
politics as America becomes not only more self sufficient with 
our own energy, but an exporter of energy to other places to 
countries that are--share our values and that are friendly with 
us.
    So I thank you for your support. It's very important to our 
country. I look forward to working with you.
    The Chairman. Thank you, Senator Landrieu.
    Colleagues are being exceptionally patient. We think 
Senator Manchin is on his way. We'll get a quorum.
    Let me start with you if I might, Mr. Smith.
    As you know you and I have talked about the idea that on 
natural gas which is an American advantage. This is a red, 
white and blue advantage for our country. We've got it. The 
world wants it.
    This is an opportunity to keep prices stable for our 
businesses and our consumers. It's got a link to renewables 
because natural gas has a chance to bring those renewables into 
base load power. If we do it right we can have it all. We can 
have a sweet spot.
    Now to do it we've really got to understand a couple of key 
kinds of issues. The first of which is I think we're going to 
need accurate data in order to really measure the full impact 
of these export applications. Now you all have been using 
something called the NERA study put together by the Department 
of Energy in its 2011 Energy Outlook.
    That study was out of date at the time it was put out. 
Those analyses that have been used by NERA are now two and a 
half years old. At what point in time do you believe that the 
NERA study is going to be out of date and not an adequate basis 
for making judgments about export permits? Is it going to be 3 
years, 4 years, 5 years? At what point do you believe that 
study is out of date?
    Mr. Smith. Thank you very much for that question, Senator 
Wyden.
    I understand your interest in this area. Certainly having 
had the opportunity to appear before this committee in the past 
we've had very good and I think, insightful guidance in terms 
of our process in moving forward.
    In terms of the studies and the data that we're using we 
have a full commitment to ensure that at all times we're using 
appropriate and relevant data to make our decisions. You 
referenced the NERA study which was commissioned by the 
Department of Energy that was delivered to DOE as part of the 
orders that we've considered thus far.
    The NERA study, I think it's important to realize is, it's 
one of many inputs that we use. It's one of many pieces of data 
that we're using on an ongoing basis.
    So as Secretary Moniz committed when he was going through 
his process and has spoken to publicly on a number of 
occasions, it's our commitment to make sure that on an ongoing 
basis we're constantly monitoring the market. We're always 
looking at incoming data and that at all times, as we go 
forward, we're using relevant, real time data to make sure that 
we're making good prudence.
    The Chairman. One other question for you and then I'm going 
to yield to colleagues.
    This has great implications for Oregonians, particularly on 
the Oregon coast. But it's also become a national issue. You 
and I have talked about it.
    As you know in Southwestern Oregon in Coos Bay my 
constituents are very excited about the prospect of Jordan Cove 
LNG export facility being built. What the community leaders 
have heard about, however, is something that's being discussed 
nationally as well. That is the idea that there would be a 
pause in the approval process, perhaps occurring before Jordan 
Cove is considered, perhaps at another time.
    You have been quoted recently as saying in effect that a 
pause isn't necessary at this time. So as you can gather my 
constituents are very interested in this issue. I think other 
parts of the country are very interested in it as well.
    So if you could set the record clear on this. Is the 
Department of Energy planning to pause its approval process in 
the next 6 months?
    Mr. Smith. Thank you very much for that question, Senator.
    So our process is to make sure that we continue to move 
forward expeditiously on a case by case basis to make sure that 
each one of these applications gets appropriate consideration. 
This is actually linked to the last question that you asked 
around use of data. On an ongoing basis we're constantly 
looking at all the market signals, all the data that we have at 
our disposal, to ensure that we're making good, real time 
determinations.
    So at this point our process is to continue to move 
forward. We want to make sure we're using relevant information 
for each of these cases. Our intent is to look at each of these 
applications fairly with full consideration on a case by case 
basis.
    The Chairman. I'm going to give the rest of my time to my 
colleagues. All of them are on a short schedule. Just know and 
I saw it in Michigan when I was with Senator Stabenow, I think 
there's an opportunity here for us to find the sweet spot where 
we can give a big lift to American industries where we have a 
pricing advantage, help our consumers, help renewables and be 
able to export.
    But No. 1 we're going to have to have good data, good and 
current data.
    Second on matters that are discussed in the media like 
whether or not there's going to be a pause and under what 
circumstance. We're going to need some more clarity on that.
    So I look forward to working with you.
    Senator Murkowski.
    Senator Murkowski. Just to finish up that question. If--I 
hear you saying, Mr. Smith, that you're going to be looking at 
this case by case, not necessarily putting a pause. Will there 
be an effort to again commission another macroeconomic study, 
impact study, then on the affect of LNG exports.
    Mr. Smith. Thank you for the question, Senator.
    At all times we're always looking at what we're learning 
from the market.
    Senator Murkowski. Right.
    Mr. Smith. What we're learning from market signals.
    So should it be determined that there's been a fundamental 
new data, new change in the market that would necessitate us 
doing an additional study and that that would be necessary for 
us to make sure that we're doing--making prudent decisions 
consistent with our obligations under the statute, the 
Department stands ready to do whatever we need to do.
    Senator Murkowski. But you haven't determined at this point 
in time that you've got to take that pause and conduct a 
macroeconomic impact study?
    Mr. Smith. We don't have, currently, a set plan at a 
certain date to commission a study. But, however, as I 
mentioned, we're evaluating that on an ongoing basis.
    Senator Murkowski. Were you able to, during the shutdown, 
were you still able to process the applications or move 
through, even during the shutdown? Were you affected by that at 
all?
    Mr. Smith. Senator, as you know the shutdown was a, you 
know, was a distraction. It impacted the entire department 
because we wanted to make sure that we're moving forward.
    Senator Murkowski. Right.
    Mr. Smith. Consistent with the anti deficiency act and all 
other statutes that we have to be cognizant of. So that was--
that impacted our ability to move forward.
    But we have constantly been pushing forward. We're doing 
our best to move forward expeditiously.
    Senator Murkowski. OK.
    Let me ask you a question, Dr. Croley.
    It was, I guess it was just last week that DOE's Inspector 
General issued this report stating that the Department has not 
fully disclosed known concerns during an audit of ECOtality. So 
we've just started to look into this matter.
    But I want to ask if you are confirmed as General Counsel 
and to the extent that you will be asked, will you be fully 
transparent with the IG's office and fully responsive to all of 
its concerns, not only relating to ECOtality, but any other 
inquiries that may come your way with regards to an audit?
    Mr. Croley. Yes, thank you, Senator.
    If confirmed I would look forward to a very transparent and 
cooperative relationship with the Department's Inspector 
General.
    Senator Murkowski. We would also expect then that you would 
keep this committee informed upon our request as the matter 
proceeds.
    Mr. Croley. Yes.
    Senator Murkowski. You're good with that. Thank you.
    One more question to you and this relates to the Loan 
Guarantee Program. I don't intend to re-litigate all of the 
issues that are there. But contained in the 2005 Energy Policy 
Act regarding subordination of debt there's been a lot of 
discussion and debate about the provision that states the 
obligation shall be subject to the condition that the 
obligation is not subordinate to any other financing.
    The whole issue of subordination of debt was of great 
discussion. I guess I would ask if you felt that that was 
ambiguous language in any way.
    I think we want to--I am very concerned as we focus on the 
Loan Guarantee Program. I'm a believer that there is an 
important role for the Federal Government here. I want to make 
sure that our Loan Guarantee Program is right.
    So if there's some ambiguity within this language I'd like 
to know whether or not we need to clear it up in any way.
    Can you comment on that?
    The Chairman. Could we do this?
    Senator Murkowski is asking a very important question. 
Something I'm interested in. With her indulgence if we could do 
our short business meeting now and then come back to----
    Senator Murkowski. Gives you time to think about it.
    [Laughter.]
    The Chairman. I want it understood that she's asking an 
extremely important question. I care a great deal about as 
well.
    [RECESS]
    The Chairman. I thank all of my colleagues for their 
exceptional indulgence and courtesy. I hope that some can 
participate in what I think will be an important discussion to 
follow.
    We now go to having Dr. Croley respond to Senator 
Murkowski's important question that we held up so that we could 
get the vote out. I do thank colleagues.
    Senator Murkowski.
    Senator Murkowski. Dr. Croley, you've not had a little bit 
of time to think about the issue of subordination of debt.
    Mr. Croley. Senator, you've raised the stakes.
    [Laughter.]
    Mr. Croley. I understand the issue that you are talking 
about, first of all, Senator. I understand. I think I 
appreciate the importance of that issue.
    I myself have not studied the details of the statutory 
language. I don't want to be reckless and commit to some view 
when I haven't studied those details. But certainly the 
language that you referenced, it seems fairly clear.
    It's my understanding that the department is not currently 
subordinating any debt. It's my understanding that the 
Department has no plans to subordinate any debt.
    If confirmed, I would be happy to work actively with your 
staff and take a close, hard look at that issue. Again, I 
understand here that protecting taxpayer interests have to be 
paramount in our loan program.
    Senator Murkowski. Thank you for that general statement. 
Again, we do want to ensure that within the language of the 
statutes that there is no ambiguity. If we think that we're 
putting into law clear and unequivocal reading that would 
clearly state that there will be no subordination debt we 
anticipate that it will be viewed that way.
    So if you do, after consideration of this language, think 
that there is some need to address this in some way, I would 
certainly be appreciated if you could get back to us.
    Mr. Croley. You can count on it.
    Senator Murkowski. Then a question to you, Ms. Kiaaina. 
This relates to the Palau offset.
    We have been, the chairman and I, have been working with 
some in the Administration to find a path forward in terms of 
an offset for the 2010 agreement that extends the financial 
assistance to Palau under the compact of free association.
    Two questions here.
    First, if you will commit to working with the committee as 
we try to find areas of offset.
    Probably from a broader perspective, how important do you 
feel this agreement is that we honor the compact of free 
association with Palau?
    Ms. Kiaaina. Thank you so much for your question, Senator.
    Let me answer your second question first with regard to the 
overall agreement. The Administration through the Secretaries 
of Interior, Defense and State have indicated strong support 
for this bilateral, financial agreement. So it is a priority.
    Should I be confirmed I commit to working with this 
committee to find viable offsets. I think that we all know that 
with the new budgetary rules of finding an offset for financing 
packages is very critical. So I do commit to working with the 
committees of jurisdiction and to navigate within the 
Administration to work collaboratively on a viable offset.
    Senator Murkowski. Thank you.
    I know that this is an issue that I think the chairman and 
I share concerns. It's important that we honor our compacts. As 
we deal with budget issues we appreciate the difficulties. But 
we're also very aware that not only is it important to honor 
the contract, but a recognition that others are looking to the 
United States to see how we are ensuring that that compact is 
addressed and fully honored.
    So it's something that we'd like to work with you on. I 
appreciate your willingness.
    Ms. Kiaaina. Absolutely, Senator.
    Senator Murkowski. Thank you, Mr. Chairman.
    The Chairman. Thank you very much.
    Let's go to Senator Schatz. Senator Schatz and Senator 
Heinrich and Cantwell all have been waiting a long time.
    So, no questions? Neither of you?
    Alright.
    Senator Cantwell.
    Senator Cantwell. Thank you, Mr. Chairman.
    I certainly want to applaud the nominees and congratulate 
you on your nomination.
    If I could to you, Dr. Croley.
    Obviously the Bonneville Power Administration is a very 
important part of the Pacific Northwest. I want to make sure 
that I get your response as counsel there to some important 
issues.
    First, will you respect the regional control of BPA as 
Congress has repeatedly affirmed?
    Mr. Croley. Yes.
    Senator Cantwell. OK.
    Will you take an expansionist view of DOE's statutory 
authority regarding BPA?
    Mr. Croley. Senator, I recognize the importance of BPA and 
its special status within the department. I wouldn't take an 
expansionist view. I would be faithful to the statute and to 
the understanding between BPA and to the department.
    Senator Cantwell. Thank you.
    Do you agree that BPA Administrator needs to be a direct 
supervisor of BPA's General Counsel to keep authority and 
responsibility and alignment?
    Mr. Croley. My understanding is that the administrator is 
the supervisor of the general counsel. That the Department's 
General Counsel stands ready to provide assistance and support 
but certainly not to micromanage the BPA General Counsel or to 
manage day to day affairs of that Counsel's office.
    Senator Cantwell. OK.
    I see a little daylight in that answer. I just want to be 
clear that this is a regional organization. I don't know, Mr. 
Chairman, maybe we need to go to the TVA approach. But this is, 
the Northwest, the Pacific Northwest, is not going to tolerate 
any attack on BPA's regional authority.
    So the issue has arisen obviously because of some of the 
practice hirings and investigation that after 6 months they'll 
be a review of these efforts. Do you agree that restoring BPA's 
traditional autonomy unless there are very specific concerns 
raised is important part of the process?
    Mr. Croley. Yes, Senator.
    Senator Cantwell. Good.
    Mr. Croley. My understanding is that there will be a 
tentative review at some point. I'm not exactly sure when that 
is. I think 6 months or something along those lines. At that 
time it will be appropriate to figure out how the department 
can be supportive.
    But I want to emphasize, in case I was in artful. I fully 
appreciate BPA's autonomy. It's my understanding the department 
has no interest in affecting adversely that autonomy but rather 
simply to provide a kind of support, to the extent that's 
necessary and to the extent that may be necessary in the future 
and it may not be.
    Senator Cantwell. I don't know if I agreed with all of that 
statement because various attempts, whether they're purposely 
or just in artfully DOE sometimes tries to propose ideas like 
regional transmission organizations that would artificially 
raise the rates of utility payers in the Northwest. Our answer 
is always no or the Administration is coming and try to take 
the money to offset the budget deficit and the Pacific 
Northwest answer is no.
    Anyway, so it's--I don't know, I think it comes with the 
territory or for this committee or being a member of the 
Pacific Northwest, so you just have to continue to fight off 
new people who come and think that BPA is something other than 
a regional organization.
    But I thank you for those answers. I'm sorry that I don't 
have any easy questions for you because now I'd like to turn to 
DOE policy as it--and the ability to separate defense waste 
from civilian waste.
    So, one I want to work with the chairman and the secretary 
to separate defense from civilian waste. We are on a trajectory 
where we're going to have defense waste ready to go somewhere. 
We don't want to have that be nowhere because we haven't come 
up with a solution.
    So will you commit to working with me and DOE and the 
Chairman on separating defense from civilian waste?
    Mr. Croley. Senator, I would be happy, if confirmed, to 
work with you on that issue and any other issue.
    My own understanding about that which is somewhat limited 
is that there's a study ongoing that Secretary Moniz has 
initiated. My understanding is that that study is not complete. 
But certainly on the legal side I would eagerly work with you 
and him and the chairman on that.
    Senator Cantwell. Do you see any legal barriers that would 
prohibit us from looking at something like, you know, salt as a 
possibility or looking at something? Are there any legal 
barriers that you know of?
    Mr. Croley. Not that I know of, Senator, though I haven't 
studied that issue in detail.
    Senator Cantwell. OK.
    Alright, I thank the Chairman. Thank you so much.
    The Chairman. Dr. Croley, let me just reaffirm the 
extraordinarily important points that Senator Cantwell has 
made. I think you know she has been our go-to person in the 
region on energy policy issues. I want to echo her points.
    I think you're probably aware that last week the entire 
Northwest delegation, 23 members, Senators and House members, 
sent a letter to you all, to Dr. Moniz, trying to make it clear 
that we feel very strongly that this problem of discriminating 
against veterans is absolutely indefensible. That it cannot be 
used as a Trojan horse to, in effect, micromanage Bonneville 
from Washington, DC.
    I talked to Dr. Moniz about this. He reassured me that the 
agency was not going to be part of any effort to micromanage 
Bonneville from Washington, DC, from the Forrestal Building, 
and that we would be getting a letter in writing this week. So 
the Northwest Congressional Delegation looks forward to having 
that written confirmation to us with respect to the delegation 
letter that was sent last week.
    On the second point that Senator Cantwell made, with 
respect to defense and civilian waste. You all are doing a 
study is what you said to Senator Cantwell. My message to the 
Department is speed it up because we are very interested in 
getting this issue resolved. Colleagues are talking about how 
to proceed on this issue.
    So please take back to the Department we're glad you're 
doing the study, but we really need your foot to the pedal and 
speed it up because Senator Cantwell and I and our constituents 
are very committed to getting this right and addressing the 
separation question which we back.
    So I thank Senator Cantwell for very important points as 
usual.
    Senator Schatz was here before Senator Portman.
    OK, Senator Portman.
    Thank you, Senator Schatz.
    Senator Portman. Thank you, Senator Schatz.
    Thank you, Mr. Chairman.
     Mr. Smith, good to have you before the committee though 
you're likely to be before the committee many times in the 
future. I know you're taking on an important job. If you're 
confirmed as Assistant Secretary of Fossil Energy you're going 
to have a lot responsibilities that are important to my State 
of Ohio.
    We're a big coal State, natural gasSstate now, oil State. 
We also have a lot manufacturers who care a lot about these 
issues.
    One is carbon capture and sequestration technologies. You 
will be responsible for overseeing that for the Administration, 
if you're confirmed. If this carbon capture and sequestration 
technology can be proven to be commercially viable it could 
dramatically reduce future carbon dioxide emissions, as you 
know, from coal and natural gas power plants and large 
industrial users.
    I have long been concerned by the Administration's 
inability to demonstrate that it's got an effective plan in 
place to develop this technology. I introduced draft 
legislation last year and actually had an amendment passed in 
this committee last year which would have required DOE to 
conduct an annual assessment of existing Federal programs 
supporting CCS that included a detailed description of where 
your existing programs are, an assessment of which programs 
have been successful to date in advancing the technology, an 
assessment of the estimated timeframe and the cost needed to 
get the technology to the commercial level.
    Again, it was reported out of this committee. But it wasn't 
signed into law. I think it is more important now than ever for 
policymakers here on the Hill to have this, best available 
data, available on CCS given that EPA has now mandated that CCS 
be installed on all of our new coal fired power plants. We have 
a lot of them in Ohio.
    They're already under siege. In fact we're shutting down 
about a dozen of them right now in our State largely because of 
EPA regulations.
    So my question to you is if you are confirmed would you be 
willing to provide this committee a detailed report on DOE's 
existing CCS programs that includes an assessment of the 
success of any new programs, assessment of the estimated 
timeframe, estimated cost to get this important CCS technology 
to commercial viability?
    Mr. Smith. Thank you for that question, Senator.
    I certainly, very personally, understand the importance of 
the development of this technology for the entire United 
States, for the whole Nation and particularly for the State of 
Ohio. Certainly if I am confirmed by this committee and go into 
the role as Assistant Secretary I'd be happy to work with the 
committee to bring full transparency to our technology 
programs.
    That's something we're proud of. We've invested over $6 
billion over the course of last several years in developing 
carbon capture and sequestration, lower the cost and make sure 
that we're putting into place all the understanding of the 
risks and the procedures necessary to store CO<INF>2</INF> in 
geologic formations and through enhanced oil recovery.
    So I'd be happy to work with you.
    Senator Portman. Thank you.
    I guess, Mr. Smith, what I'm looking for is not just full 
transparency on what's been done, but your projections as to 
what the timeframe is and what the cost is going forward to 
bring it, again, so that it--to the commercially viability 
stage. Would you be willing to do that as well?
    Mr. Smith. Indeed, Senator. I would be happy to work with 
you.
    Senator Portman. We'd appreciate that.
    To Mr. Croley and Mr. Smith, as you may know I've 
introduced bipartisan legislation here on permitting. Senator 
McCaskill, Enzi, Donnelly, Barrasso and I introduced a bill 
that streamlines the process of Federal permitting. It actually 
establishes a Federal chief permitting officer to oversee 
permitting processes, designates a lead agency every time to 
coordinate because one of the problems we have is the left hand 
doesn't know what the right hand is doing sometimes and ensure 
timely and concurrent reviews.
    As you know some energy projects might have over 30 Federal 
permits, we are told and also the implementation of an online 
dashboard so that the public can hold agencies accountable for 
meeting the deadlines that are set on permitting.
    There's a study that's done every year. I think it's by the 
IMF. It has to do with the ease of doing business.
    The United States just keeps falling further behind in 
terms of permitting. We're now number 17 in the world in terms 
of permitting. It's affecting a lot of great projects, 
including energy projects in my State of Ohio, a hydropower 
plant for instance on the Ohio River.
    The permitting makes it impossible to move forward 
sometimes because investors aren't willing to make a commitment 
without any certainty on the permitting.
    So my question to you is what permitting reforms do you 
believe are necessary in the energy area including, Mr. Smith, 
in the CCS area? What reforms are you willing to support to 
ensure that projects receive thorough review but are not 
needlessly delayed due to bureaucratic red tape. Again, 
regulations that are not concurrent, permitting requirements 
that are not concurrent, but instead unnecessarily delayed 
projects?
    Mr. Croley. Sure, Senator. Thank you for the question.
    I--it's something that, if confirmed, I would love to work 
with you and your staff on. I know that permitting and 
streamlining permitting in particular is something that the 
Administration has focused on as well across the government. I 
would be eager to educate myself with respect to the specific 
legislation that you're talking about.
    But certainly the underlying problem of unnecessary or 
overlapping or excessively complex permitting is something in 
principle that we should work on. Again, I would defer to the 
policymakers at the Energy Department, but I would stand ready 
to work with you on those legal issues. I recognize the problem 
that you're identifying.
    Senator Portman. I think DOE plays a big role here. You're 
not the biggest permitting agency, but you are an agency that 
has the policy responsibility. We're happy to get you the 
details of not just our legislation, but some of the background 
to it, some of the research we've done. Also the statements of 
the AFLCIO building trades folks and the chamber of commerce.
    I mean it's an issue where you really have a lot of people 
coming together realizing that we can't be competitive until we 
deal with this.
    Mr. Smith, any comments?
    Mr. Smith. I just concur with Dr. Croley's observations 
there. We don't have a direct regulatory role, but we certainly 
have to work with our other Federal agencies and work with 
Congress. So if confirmed into this role as Assistant 
Secretary, I'd be--I'd look forward to working with our other 
agencies and working with this committee to ensure that we're 
working together in a way that's efficient.
    Senator Portman. Thank you, Mr. Chairman.
    Thank you, Gentlemen.
    The Chairman. Thank you, Senator Portman.
    Senator Franken has been shuttling back and forth between 
Committees. Let's recognize him.
    Senator Franken. Thank you, Mr. Chairman.
    Thank all the witnesses.
    Mr. Smith, although the technology to do carbon capture and 
sequestration with coal fired power plants has been shown to 
work there are major challenges to scaling up these processes 
and making them commercially viable.
    One of the economic challenges that have prevented coal 
power plants from adopting carbon capture and sequestration and 
how would you work as Assistant Secretary to address them?
    Mr. Smith. Thank you, Senator, for that question.
    Certainly the challenge of capturing CO<INF>2</INF> out of 
our coal fired power fleet, out of our entire power fleet, is 
very important for us and that's where we're focusing our 
efforts.
    At the Department of Energy we've got 2 major goals in 
terms of carbon capture and sequestration.
    The first is moving forward technology to reduce the cost 
of capture.
    The second is to move forward with the understanding of 
issues around long term storage either in saline aquifers or 
through beneficial uses such as enhanced oil recovery.
    So if I'm confirmed as Assistant Secretary I'd commit to 
working with this committee and working within DOE to continue 
to move along those 2 lines and get more large scale 
demonstrations put in place and advance the deployment of the 
technology.
    Senator Franken. It seems to me this is an extremely 
important issue because we see--for us to do the research and 
development and the scaling up of this capture and 
sequestration. You see that China and India are burning coal. 
The world has a lot of coal.
    It's going to be burnt, a lot of it. If we--Ms. Kiaaina 
talked about global warming in her climate change in her 
testimony. It seems like this is a very important technology 
that we have to do all the research and--that we have to do a 
lot of the research and development on. The funding of that is 
an issue.
    One possible model for funding research in this area is the 
way we fund ultra deep water drilling research. This program is 
funded through rents, royalties and bonuses from Federal 
offshore oil and gas leases. Can you talk about the success of 
that program and whether this model could be used in other 
sectors such as CCS?
    Mr. Smith. Thank you very much for the question, Senator.
    First of all we fully appreciate the challenge before us in 
terms of development of these technologies and we've made 
historic investments over the course of the last few years in 
terms of carbon capture and sequestration development, research 
and development.
    Section 999 of the Energy Policy Act of 2005 created a 
royalty trust fund that was--that came from producers who 
produce on public lands. That goes from the Department of the 
Interior to the Department of Energy and we've used that to 
sponsor research and development on onshore oil and gas 
development and ultra deep water. We've got a program for to 
assist small producers.
    So that's one mechanism that the Department has used to 
fund the important research and development projects that need 
to be undertaken. If confirmed into this role I'd look forward 
to working with this committee and working with Congress in 
general to devise ways to efficiently fund the technologies 
that need to be developed.
    Senator Franken. I just think this is an incredibly 
important area as we've discussed in this committee what the 
exploration of natural gas has done and how that came out of 
research from the Department of Energy and financing from the 
Department of Energy.
    I want to turn to from carbon capture to carbon conversion. 
You--some have demonstrations of turning carbon dioxide to use 
it as a feed stock for algae, to grow algae which can be used 
as a biofuel in turn.
    Another application is turning it into a solid, calcium 
carbonate, and then using it in cement production.
    The challenge we face is this is still expensive. Can you 
tell me what will you do to support the commercialization of 
technologies to capture carbon and convert it for beneficial 
use?
    Mr. Smith. Thank you very much for the question, Senator.
    The most direct and I think the most relevant utilization 
of CO<INF>2</INF> right now is using it for enhanced oil 
recovery. So you take CO<INF>2</INF> you use it in depleted oil 
fields and it allows you to recover oil that would not have 
been recovered otherwise which allows you to reduce our 
Nation's dependence on imports. In fact just in the month of 
October for the first time the United States is importing--is 
producing more oil than it imports. That's for the first time 
since, I think, 1995.
    So EOR helps us take steps in that direction where it's 
positive for energy security.
    We also have programs within the National Energy Technology 
Laboratory. They are looking at a catalyst to take 
CO<INF>2</INF> and turn it into other beneficial uses. A 
challenge with CO<INF>2</INF> is it's a very stable molecule. 
It wants to stay as CO<INF>2</INF> essentially.
    So the other challenge that we have is that there are just 
tremendous, huge quantities of CO<INF>2</INF> that need to be 
captured and stored.
    So we're looking at technologies that would be able to make 
some beneficial use of some portion of that CO<INF>2</INF> that 
would also create revenues that might offset some of the other 
costs that are incurred.
    So if confirmed into this position I'd look forward to 
continuing to push those programs and find good solutions.
    Senator Franken. Mr. Chairman, would it be OK if I asked 
one more question----
    The Chairman. Of course. I'm sure my colleagues are fine 
with that.
    Senator Franken. I think I've been a stellar member today. 
I was here early.
    The Chairman. Not just today, but all the time. I think 
particular----
    Senator Franken. I wasn't fishing for that, but----
    The Chairman. I think the point Senator Franken is making 
with respect to the nature of what government can do in the 
research field and what's it's done in the past is a very valid 
one. I appreciate him making it.
    Senator Franken. Thank you.
    Look, we have this real problem. Ms. Kiaaina, you referred 
to it in your testimony which is about climate change. So part 
of what you look at is the--and what you've been involved with 
is the Pacific and the South Pacific. I was wondering about the 
issues of coral reef protection.
    I'm really concerned what climate change is doing to our 
ecosystems.
    For example, you know, warmer air and ocean surface 
temperatures are impacting--they're impacting storms. They're 
impacting the acidity of the ocean, I know is increased. It's 
altering the coral reef communities and our production of fish 
and of crustaceans. So we're seeing these bleaching events.
    Can you talk about the impacts? How these impacts affect 
corals and the many organisms that use coral reefs as habitat?
    Ms. Kiaaina. Thank you, Senator, for that question.
    In my current capacity at the Department of Land and 
Natural Resources we like to utilize traditional practices by 
native Hawaiians whereby the manner of how we steward our 
natural resources takes into account our practices from the 
mountain to the sea. It's called the Maku'u Ahupua'a or 
Ahupua'a system. So clearly while there are a lot of 
environmental issues that could be traced to the degradation of 
our coral reefs. A lot also has to do with the practices of 
what is happening in our forests above.
    So we do like to take a comprehensive approach. While we do 
have specialists in our division of aquatic resources that--who 
spend countless hours looking into the research of why our 
coral reefs have declined. We also insure that we're looking 
toward--one of our priorities at the moment is protection of 
our watersheds because we believe that our watersheds is not 
only important to securing safe drinking water, but it's 
important because it does impact with the reforestation of 
native species, removal of ungulates and removal of invasive 
species that actually could have a bearing on climate change 
and also to help safeguard the resources.
    So by the time it affects, it goes down to the sea, it is 
not as bad. Most recently we had a molasses spill, remarkably 
in Honolulu harbor that was very devastating. Most devastating 
was to our coral reefs as well as to all of the fish habitat 
that live there. That's something that we're working with the 
shipping company who is responsible for that to ensure that it 
doesn't happen again.
    So I would say that apart from necessary research that we 
have to undertake to help to preserve our coral reefs we also 
have to have the strongest environmental compliance laws on the 
books both within the State of Hawaii as well as the Federal 
Government. I am pleased to report that Hawaii does have one of 
the strictest compliance environmental laws in the Nation. So 
very often we have enforcement mechanisms to deal with these 
kinds of issues at the State level, but we welcome working with 
our Federal partners to ensure that we do everything possible 
to protect and safeguard our environment.
    Senator Franken. I'm sorry, but I guess I was talking about 
more of a macro look at this in terms of our, what the planet. 
What's going on with the planet in terms of the acidification 
of the oceans and how that is affecting the coral reefs?
    I've completely used up my time and others, so.
    Ms. Kiaaina. Sure, Senator. I just would like to say I 
guess I would say that we believe that everything is 
interrelated.
    Senator Franken. Of course.
    Ms. Kiaaina. That we are in an environment where what we do 
in Hawaii is interrelated to the environment in the whole 
Pacific and globally. For some of these critical issues that 
you have raised, we cannot do it on our own or within a region. 
It has to be done comprehensively with other countries in the 
world.
    Senator Franken. Thank you.
    Thank you, Mr. Chairman, for your indulgence.
    Thank you, Senator Barrasso, for your patience.
    The Chairman. Senator Barrasso.
    Senator Barrasso. Thank you very much, Mr. Chairman.
    Mr. Chairman, last Friday President Obama gave a speech 
about American exports. The President stated that one of the 
things that we should be focused on is helping more businesses 
sell more products to the rest of the world. He explained that 
exports are one of the brightest spots in the economy and that 
every $1 billion in exports supports nearly 5 thousand jobs.
    These are great things to say. But they belie the actions 
of this Administration. Mr. Chairman, while I'm here to 
congratulate all the 3 nominees, I have a couple questions 
related specifically for the Department of Energy because I 
look at liquefied natural gas exports as a concern.
    Currently countries from around the world want to buy LNG 
from the United States. These countries are imploring this 
Administration to act on the export applications that are 
currently pending for LNG. Over the last two and a half years 
the Department of Energy has acted on only 4 applications to 
export LNG to countries which do not have free trade agreements 
with the U.S.
    Meanwhile the current Department of Energy is sitting on 20 
pending applications. Global demand is limited. The time to act 
is now.
    So, Mr. Smith, my question is help us understand, if you're 
on the committee, the delay in processing these applications. 
Is the delay coming from inside or outside of the Department of 
Energy? Is it coming from the White House?
    I'm just trying to figure out where the bottleneck is.
    Mr. Smith. Thank you very much for that question, Senator.
    First of all, we certainly share your interest in the topic 
and with the possibility of the promise, the opportunity to 
create jobs and to do positive things for our economy.
    In terms of moving forward on LNG export applications, as 
you mentioned, we've evaluated--we've made orders on 4 
applications thus far. All 4 applications that we've issued 
orders on we've approved.
    As Secretary Moniz has stated when he came before this 
committee, our job is to move forward as expeditiously as 
possible, but while also showing the care that's mandated by 
the statute, by the Natural Gas Act. So it's our intention to 
continue to move expeditiously to evaluate each of these 
applications on a case by case basis.
    If confirmed into this role I'd look forward to working 
with you and with this committee.
    Senator Barrasso. That's encouraging because like I asked 
the question if confirmed what steps will you take to reduce 
some of these delays so that expeditiously means faster than 
it's currently going?
    Mr. Smith. Yes, well, thanks for that question, Senator.
    Certainly I would not characterize our process as having 
been delayed. If I look at the requirements that are upon us 
under statute, in fact, that we are moving into an 
unprecedented area, it's incumbent on the Department of Energy 
to make sure that we're considering all stakeholders. Certainly 
there are some stakeholders who would want us to move faster 
and there's some stakeholders who'd want us not to export LNG 
at all.
    So it's our job to make sure that we're making good, 
prudent decisions that are consistent with the public interest 
and that withstands scrutiny. We'd look forward to moving 
forward in that way.
    Senator Barrasso. On Tuesday I sent the Secretary, 
Secretary Moniz, a letter in support of the Jordan Cove LNG 
export terminal. Unlike any other proposed export facility the 
Jordan Cove would really provide Rocky Mountain States, as well 
as the Indian tribes, access to international markets.
    Jordan Cove would enable states like Colorado, Wyoming, the 
Indian tribes such as the Ute Indian tribe to sell natural gas 
to customers in Asia, who are very interested in buying this. 
Rocky Mountain States and Indian tribes depend heavily on 
natural gas production to fund basic government services like K 
through 12 education, roads, bridges, water/sewer systems, all 
related to the revenue from this LNG.
    Natural gas production also provides income to many of the 
families in our states. Puts food on the table. Keeps the heat 
on. Pays for, you know, the necessities, clothing, impacts the 
quality of life.
    The Nation's supply of natural gas is expected to exceed 
our domestic demand. So companies are already canceling natural 
gas projects. They're generating fewer jobs in our communities 
and less revenue to local and State governments. The 
communities are going to need access to international markets 
if they're going to continue to thrive.
    So this is why I think the DOE must expeditiously and we're 
back on that word, review and act on LNG export applications.
    So I just ask, you know, if you appreciate the importance 
of these exports to communities that produce natural gas such 
as the Rocky Mountain States and on our Indian reservations for 
the tribes.
    Mr. Smith. I certainly do, Senator.
    Senator Barrasso. I'd like to discuss a little bit on 
carbon capture and sequestration technology. I know Senator 
Franken was discussing that as well with you previously.
    In September EPA issued a proposed rule governing 
greenhouse gas emissions for new power plants. The EPA's rule 
affectively requires new coal fired power plants to deploy 
carbon capture and sequestration technology. However, the 
technology isn't currently and may never be commercially and 
economically viable.
    Last month your predecessor, Charles McConnell, testified 
about carbon capture and storage technology before the House of 
Representatives. His statement was, the cost of current 
CO<INF>2</INF> capture technology is much too high, he said, to 
be commercially viable.
    He explained that technology exists for separation and 
capture of CO<INF>2</INF> at the plant, but it increases the 
cost of generating electricity, he said, by about 80 percent. 
Of course, those are costs the consumers then would have to 
bear.
    Finally he noted that affordable solutions may be decades 
away with the current level of funding.
    So the question is given the State of this technology is it 
reasonable for the EPA to effectively require this technology 
for all new coal fired power plants?
    Mr. Smith. Thank you for the question, Senator.
    We're clearly not the regulatory agency.
    Senator Barrasso. Yes.
    Mr. Smith. I've not seen the transcript of anything my 
predecessor might have said so I can't comment in detail on 
what we might have commented or on the regulatory process which 
is the responsibility of the Environmental Protection Agency.
    What I will say is that these basic technologies aren't 
new. The North Dakota/Great Plains Project has been capturing 
CO<INF>2</INF> for over a decade. There are 12 large commercial 
scale projects that are in development or are operating around 
the world.
    The Administration has committed over $6 billion over the 
last several years on carbon capture and sequestration. We've 
seen development projects in operation and being built 
currently in real times. So my job, if confirmed into this 
role, would be to continue to push the technologies, continue 
to lower the cost of capture and continue to realize the 
importance of this particular technology to ensure that coal is 
part of the clean energy economy of the future.
    Senator Barrasso. I appreciate that because I look at this 
to be Assistant Secretary of Fossil Energy for the Department 
of Energy. It does seem the Administration, if it's concerned 
as you point out in the importance of this, about investment. I 
just wonder why the Administration has dramatically reduced its 
annual budget request for programs that actually develop this 
technology.
    I know you weren't the person that put the budget into 
place or made that request. But I'm just wondering about the 
commitment of the Administration based on its budgeting 
requests when what you're stating is something that heads a 
little bit in the other direction.
    Mr. Smith. Thanks, Senator.
    But--I mean over the start of the Administration we've 
committed $6 billion which has been a historic investment in 
CCS R and D and demonstrations. The Department has just 
released an $8 billion loan guarantee program that could be 
used through the suite of opportunities for fossil energy 
including carbon capture and sequestration. We're continuing to 
work with our partners in industry and in academia to push this 
technology forward.
    So these challenges are difficult. They're challenging. 
They require us to work with industry and with academia. If 
confirmed in this role I'd commit to working with you and with 
Congress and with other agencies to make sure that we are 
pushing to achieve the milestones that we need to meet.
    Senator Barrasso. Thank you.
    Again, congratulations to each and every one of you and 
thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Barrasso.
    Just by way of engaging briefly on this natural gas issue 
because I think you know I'm very interested in working closely 
with you and Senator Murkowski. Because it's my view that, you 
know, we Americans, especially we, Westerners, we're always 
interested in trying to have it all. You know, we want to be 
able to have the advantage for our consumers and our 
businesses.
    We've got it. The world wants it. I mean, this is advantage 
America. It's been my view that if we tee this up right we can 
have all of those benefits including benefits for renewables 
because natural gas is a clear connection to solar and wind for 
purposes of getting those renewables into base load power.
    I think part of what we're starting to see emerge is the 
challenge of dealing with specific areas of the country. You 
know, when I was in Alaska and Senator Murkowski and I were 
talking about the interest in Cooks Inlet in terms of exporting 
natural gas. If they don't get to export natural gas, unless 
I'm missing something, it's stranded.
    I mean, nobody is going to get hurt in the lower 48. The 
only people that would get hurt would be, in effect, you know, 
Alaskans.
    On the Jordan Cove issue we have a different kind of 
challenge. Of course, I'm very interested in my constituents in 
a part of the State that's just been clobbered over the years 
economically with changes in natural resource policies. Having 
the opportunity to be considered--one of the advantages for 
Jordan Cove beyond the fact that it's just the only West Coast 
one in consideration is the company has said the facility will 
export primarily Canadian liquefied natural gas. That's what's 
on their web site. That's what they've been talking about.
    So that presents again, an opportunity that you're not 
going to be displacing gas that would be going to hard hit 
companies or trying to get an advantage in tough global 
markets.
    So my sense is we're all going to be working on this in a 
joint way. I think Mr. Smith was helpful today on the pause 
issue because you know there's been a lot of discussion where 
people on all sides of this issue have just been trying to 
figure out what the Administration's position was on the pause 
issue. Mr. Smith clarified that essentially we were going to 
stay in the case by case kind of approach which is what Dr. 
Moniz had assured me of.
    So I thank my colleagues for wanting to work on this in a 
collegial and bipartisan way. Sometimes the more you learn 
about natural gas exports, sometimes the less you think you 
know because it is a complicated issue. My sense is if we do it 
right we can have it all.
    If the Senator from Wyoming wants to comment that's fine.
    Senator Barrasso. I appreciate your efforts, Mr. Chairman. 
You've been terrific in working to accomplish this. I think 
over the life of the project, of the one that we've just 
discussed, over the length of the project it would be about an 
equal amount from the Rockies as well as from Canada.
    Of course we have great concerns for the communities and 
the quality of life of the people that work there. These are 
excellent jobs, great benefits and contribute to places where 
in many other ways they're not able to economically develop all 
the other resources. It's often a long distance if they try to 
manufacture and transport manufactured products and so that 
these are opportunities for communities that may have limited 
opportunities.
    So I appreciate your efforts. Thank you, Mr. Chairman.
    The Chairman. We are going to pursue this together. Senator 
Murkowski and I probably devoted more time to kicking around 
the various iterations as this debate on natural gas is going 
to continue. I think so far the Administration has kept its 
pledge and sort of, grudgingly, all sides seem to have been 
able to live with it. They're going case by case. They're 
looking at the cumulative effects.
    We're going to continue the discussion.
    Let me turn briefly to another topic that you and I talked 
about in the office, Mr. Smith. That's the question of crude 
exports. I'd like to ask you the question because, as you know, 
and we discussed, there is considerable amounts of discussion 
about whether the Congress ought to be having a debate about 
lifting or relaxing the ban on crude exports.
    I'm going to ask you this question recognizing that from a 
purely legal standpoint, the authority here lies with the 
Department of Commerce. But I think it's very clear that when 
you're talking about position in fossil energy and the 
Department of Energy, your views are going to be solicited on 
this matter. People are going to be talking about this in the 
Administration.
    I think it would very helpful for purposes of just getting 
your sense of what factors the Congress should focus on in this 
debate about exports? What I said and indicated to you when we 
talked about it in the office, to me the debate really rivets 
on the impact of lifting the ban on consumers. That's what is 
really my bottom line.
    I mean, what we've talked about, Senator Murkowski and I, 
from the very beginning, is we were going to make sure that 
consumers were front and center in this whole debate about the 
future of energy policy. I know this is a challenging issue. I 
would just be interested in your giving us your take because 
you're going to be in the fossil energy business when 
confirmed.
    What are the factors or potential pitfalls and benefits you 
think we ought to be looking at?
    Mr. Smith. Thank you, Senator, for that question.
    As we discussed when I had the opportunity to speak with 
you in your office, this is an exciting time for domestic 
energy production across the board.
    Back in 2011 the President set the ambitious goal of 
reducing imports by a third over the next decade. Indeed we've 
already made tremendous progress on that. Here in the month of 
October for the first time since 1995 domestic production is 
exceeding imports. We're expecting to get up to 7.5 million 
barrels per day of production.
    So, just the fact that we're discussing this dilemma, this 
opportunity, to export oil really shows that we've moved from a 
period of scarcity to potentially a period of more abundance. 
So in terms of problems to have, it's a pretty good problem to 
have.
    As you pointed out the statutory requirement for ruling on 
these lies with the Department of Commerce not with the 
Department of Energy, but if confirmed I'd commit to working 
with this committee and working with the Department of Commerce 
to make sure that we're making smart decisions that are 
consistent with the public interest.
    The Chairman. That was a careful answer. I think I'll let 
it be at this point. You and I are going to have some more 
discussions about that because you have expertise and you've 
got passion in the field. You're going to be consulted.
    So on notice, when confirmed, because as you know I'm going 
to be supporting you. I believe you're going to win support in 
this committee. I certainly hope so. You and I are going to 
have some more conversations.
    Mr. Smith. Thank you, Senator.
    The Chairman. On this topic.
    Let me turn to you, Mr. Croley, for my remaining time on 
this round and talk to you a bit about whistle blowers.
    The Department of Energy has had, for quite some time, 
policies to protect both agency and contractor employees who 
raise safety or operational issues. My own view is that these 
have come to look very ineffective.
    Just last month a Hanford whistle blower, whose concerns 
were the subject of an entire investigation in the safety 
culture at Hanford by Peter Winokur and the Defense Nuclear 
Facility Safety Board, that whistle blower was fired.
    The decision came just days after the Secretary and Deputy 
Secretary Poneman issued a Department side memo pledging to 
maintain a strong safety culture and listen to dissenting 
opinions.
    So I think I indicated to you in the office, I'm pretty 
much a lawyer in name only. I ran the legal aid office for 
senior citizens. Yet, I still understand that the Department 
and the contractors have a right to defend themselves against 
lawsuits. But the Department spends millions of dollars on 
cases challenging whistle blower's claims and worse retaliation 
against whistle blowers.
    In the Hanford case the Department has already reimbursed 
the contractors for $1.75 million in legal fees and the case is 
not yet over. So as General Counsel, when confirmed, you're 
going to oversee the contractor's legal plans and costs as well 
as those of the Department.
    So my question is will you commit this morning to taking an 
independent look at how the Department and its contractors 
handle whistle blower complaints, retaliation against whistle 
blowers and resulting litigation. I'd like you to get back to 
us within a reasonable time. Why don't we say forty-five days 
after confirmation?
    Will you commit to doing that?
    Mr. Croley. Yes, Senator.
    Mr. Croley. I recognize, as the Secretary has addressed 
this issue as well, the importance that all Federal employees 
and as you suggest Federal employees and Federal contractors, 
the importance that they feel like they are in an environment 
where they can raise concerns.
    I understand this is crucial.
    It is crucial to protect the taxpayer.
    It is crucial to ensure the safety of our Federal worksites 
at Hanford and elsewhere.
    So this is an important matter.
    Without commenting on the particular case you're 
referencing, which I'm sure you appreciate, is in litigation. 
On the question on reimbursement of legal fees, I would commit 
to you, to work with you and to take an independent look on 
that issue.
    I understand the General Counsel has some authorities 
there. My understanding is that a regional counsel do as well. 
So I will have to roll up my sleeves, but I would commit 
unequivocally to doing that.
    The Chairman. I appreciate that.
    As you know from our discussion in the office every 
independent group thought that he was raising legitimate 
concerns, every single, independent group. I think it's time to 
really draw a line in the sand because if the message is out 
department-wide that when you speak truth to power and you come 
forward and lay out what your concerns are, you face these 
kinds of problems. I think it's going to be very detrimental to 
a safety agenda.
    You don't want that to happen. I don't want that to happen. 
The Secretary doesn't want it to happen. So let's operate under 
the assumption that you're going to look at this, give us an 
independent take. 45 days after confirmation it will be sent to 
Senator Murkowski and myself. We'll share it with the 
committee.
    Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.
    Mr. Smith, I appreciate your comments. I read the article 
in the Post this morning about the crossing of the lines where 
since the first time since 1995 our production with oil, 
domestically, has surpassed that of our imports. I think that 
that's good news for the country. I think that that gives us 
opportunities.
    I have stated many times that we're going through a, just 
kind of a reassessment, in terms of understanding our energy 
and our energy portfolio. It's tough to transition your thought 
when you've been used to focusing on areas of scarcity. Now we 
are truly looking to areas of abundance whether it be oil or 
natural gas.
    I think there's exciting times when it comes to so much of 
our fossilized fuels. Where our opportunities lie for, not only 
increased energy independence, but what it means from an 
economic perspective. So a lot of talk here at the committee 
today about natural gas, discussion here about oil, obviously 
the issue of coal and how we access that in an environmentally 
responsible way, the advances through CCS, but there are also 
some other areas where our technologies will allow us to go 
places that we have not really been able to dig into.
    I'm interested in the area of methane hydrates. I think 
that we have great potential up north. We've been working with 
the Japanese government, have been engaged in a study with 
Japan.
    The program for methane hydrate research is proposed at $5 
million for FY2014. This is far less than what the department 
needs to follow up on the test that was done back in January 
2012 up in Prudhoe Bay.
    Japan has conducted its own follow up test and reported 
some substantial progress in being able to tap methane 
hydrates. It's not just, of course, off of Alaska that we have 
enormous potential for methane hydrates. We've got clearly in 
the Gulf of Mexico.
    So kind of a broad question and then ask you to focus it 
down.
    First, in terms of your commitment to an all of the above 
and we're talking about the Fossil Energy Department and the 
focus on all fossil fuels whether the commitment is there to be 
an advocate for all of the fossil fuels. Not only those that 
are in favor today like natural gas, clearly, but how we're 
able to access our coal, our oil and perhaps the more 
experimental sources like methane hydrates, oil shale.
    Then if you could speak a little bit to the methane 
hydrates.
    Mr. Smith. Thank you very much, Senator, for that question.
    I think that as your, some of your comments articulate, 
ours truly is an all the above strategy. I mean I've had an 
opportunity to spend some time talking about our historic 
investment in carbon capture and sequestration which is 
primarily aimed toward ensuring that coal fired power 
generation remains a relevant part of the clean energy economy 
of the future.
    Another part of the portfolio which I've actually managed 
as the Deputy Assistant Secretary for Oil and Natural Gas is 
the project that you mentioned, the initiative to investigate 
the viability of producing natural gas from methane hydrate 
formations.
    Just last year I signed a Memorandum of Agreement between 
the Department of Energy and the State of Alaska. I signed that 
with Dan Sullivan, who at the time was the Commissioner for the 
Alaska Department of Natural Resources which for us was a real 
model of collaboration between the Federal Government and State 
government and also working with international governments. The 
government of Japan partially funded the test that we did in 
Alaska back in 2012. Working with the private sector, the 
methane hydrate well that we drilled back in 2012 was drilled 
in collaboration with Conoco.
    So we continue to think that these projects are incredibly 
important which is why, excuse me, why we're continuing to 
collaborate with the State of Alaska.
    When I was in Alaska just a couple weeks ago we, the 
Department of Natural Resources issued a press release in which 
it took a chunk of acreage, pulled it off of its leasing plan 
and reserved that for the Department of Energy and the 
Department of Natural Resources to collaborate on future 
methane hydrate research.
    So we're taking steps to make sure that we advance those 
projects. We're looking for novel ways of pushing forward on 
the technology. If confirmed in this role I'd commit to working 
with you and this committee to make sure that those, that 
research, has the maximum chance of being successful.
    Senator Murkowski. I appreciate you saying that because it 
is an area that is somewhat overlooked. If it's not discussed, 
I know Senator Akaka and I had worked on advancing the issue of 
methane hydrates and how we can better understand what it is 
that we have and how best to access it recognizing that there 
are real challenges with accessing, particularly in an arctic 
environment and the environmental challenges that we face 
there.
    But I appreciate your background to it and understand that 
as we try to establish some budget priorities in budgets that 
are growing skinnier all the time, it's important to have an 
advocate who knows and understands what the potential can be 
for us, not only from a national perspective, but working 
cooperatively with some of our partners overseas.
    Mr. Smith. Thank you, Senator.
    Senator Murkowski. With that, Mr. Chairman, I thank each of 
you. I would hope that we would see these names moved through 
quickly. I will stand to support each of you and appreciate 
your willingness to serve.
    Mr. Smith. Thank you.
    The Chairman. In our tradition, Senator Murkowski has the 
last word.
    Just one little bit of business, Ms. Kiaaina, I'm very much 
in favor of your nomination. We'll have a few matters that 
we're going to ask you in writing. Nothing torturous, but a few 
others things we want to do.
    The Chairman. With that and let me state that I support all 
the nominations as well today, enthusiastically.
    The Energy Committee is adjourned.
    [Whereupon, at 11:25 a.m., the hearing was adjourned.]


                               APPENDIXES

                              ----------                              


                               Appendix I

                   Responses to Additional Questions

                              ----------                              

      Response of Steven P. Croley to Question From Senator Wyden

    Question 1. Dr. Croley, Current DOE General Counsel Mr. Greg Woods 
memorialized in a letter to Mr. Elliot Mainzer, Acting Administrator of 
BPA, dated November 12, 2013, the reporting relationship between the 
DOE General Counsel office and BPA's General Counsel (copy attached). I 
have read Mr. Wood's letter and find it a helpful clarification of 
Deputy Secretary Daniel Poneman's October 24, 2013 memorandum regarding 
reporting relationships between BPA and DOE. For example, the Woods 
letter clarifies that the BPA GC continues to report to the BPA 
Administrator under the new reporting relationships outlined in the 
Deputy Secretary's letter. If you are confirmed will you commit to 
implement the DOE GC/BPA GC approach stated by Mr. Woods in his 
November 12, 2013 letter?
    Answer. Yes.

    Responses of Steven P. Croley to Questions From Senator Barrasso

    Question 1. In 2011, the Government Accountability Office (GAO) 
issued a report which found that the Department of Energy (DOE) 
violated the miscellaneous receipts statute (31 U.S.C. 3302(b)) in a 
series of transactions with USEC between December 2009 through June 
2011. Upon reviewing GAO's report, do you believe DOE violated Federal 
law with respect to these transactions? If not, why not?
    Answer. I am aware that GAO concluded its report that, pursuant to 
the Miscellaneous Receipts Statute, the Department should have 
deposited into the Treasury funds equal to the value of the uranium 
transferred to USEC in exchange for accelerated cleanup services in the 
transactions covered by the report. I further understand that in its 
official agency comments to the report, the Department respectfully 
disagreed with GAO's conclusion in that regard. I am strongly committed 
to working with GAO and other overseers that are key to the federal 
quality control process. If confirmed as General Counsel I will ensure 
that the Department cooperates fully with GAO investigations and 
complies with all applicable law in connection with any proposed 
transaction.
    Question 2. If confirmed, what steps will you take to ensure that 
DOE complies with the miscellaneous receipts statute (31 U.S.C. 
3302(b))?
    Answer. If confirmed, I will ensure that DOE complies with the 
Miscellaneous Receipts Statute. Specifically, I will ensure that every 
transaction involving the transfer of uranium receives full legal 
review, including for consistency with the Miscellaneous Receipts 
Statute and other applicable laws.
    Question 3. Section 3112(d) of the USEC Privatization Act (42 
U.S.C. 2297h-10(d)) states that the Secretary may sell or transfer 
natural or low-enriched uranium from DOE stockpiles provided that:the 
Secretary determines that the sale of the material will not have an 
adverse material impact on the domestic uranium mining, conversion, or 
enrichment industry, taking into account the sales of uranium under the 
Russian HEU Agreement and the Suspension Agreement.
    Since the May 15, 2012 Secretarial Determination, the U.S. spot 
price of U3O8 has fallen by roughly 30 percent. What steps, if any, 
would you take to ensure that all future Secretarial Determinations are 
in compliance with Section 3112(d)?
    Answer. If confirmed as General Counsel, I will work with my 
colleagues in the Department to ensure that any sales or transfer of 
uranium, if undertaken, complies with applicable law, including Section 
3112 of the USEC Privatization Act. I understand that the Department's 
current practice is to examine any sale or transfer of uranium to 
determine whether it might have an adverse material impact on the 
domestic uranium mining, conversion or enrichment industry. If 
confirmed as General Counsel, I will ensure that that there is full 
legal review of any potential transaction.
                                 ______
                                 
     Responses of Esther P. Kiaaina to Questions From Senator Wyden

    Question 1. In 2010, the Administration signed an agreement with 
the Republic of Palau to revise the Compact of Free Association and to 
phase-out financial assistance by 2024. However, about that time, new 
Congressional budget rules came into effect which require the 
Agreement's estimated $170 million cost to be offset.
    In addition to occupying a strategic position in the Western 
Pacific, Palau is arguably the United States' closest ally-it votes 
with the U.S. in the U.N. more than any other nation, and its citizens 
enlist in the U.S. military at rates that exceed that of any State.
    Can you assure the Committee that, if confirmed, identifying an 
offset and seeking approval of the Agreement with Palau will be a top 
priority?
    Answer. Yes, I can assure the Committee that approval of the Palau 
financial agreement, and continuing to work within the Administration 
and with Congress to identify an acceptable offset, will be a top 
priority of mine if I am confirmed. It is my understanding that the 
Administration strongly supports the approval of the Palau financial 
agreement, and looks forward to continuing the United States 
partnership with Palau. I fully support the Administration's position.
    Question 2. The largest programs at the Office of Insular Affairs-
about $175 million annually and half of the Office budget--are the 
Compacts of Free Association with Micronesia and the Republic of the 
Marshall Islands. However, there are only 6 full time employees 
committed to oversight and implementation of these two programs.
    If confirmed, do you pledge to work with the Committee on a 
comprehensive review of these programs--their staffing, monitoring and 
performance?
    Answer. Yes, if confirmed I will work with OIA to provide a review 
of staffing, monitoring, and implementation of the Compact program.
    Question 3. Several months ago, the Acting Assistant Secretary for 
Insular Affairs closed the Office of the Labor Ombudsman in the 
Northern Mariana Islands without consultation with Committee or a plan 
for how the activities of that office would be handled in the future.
    Would you take the message back to the Department that the 
Committee asks that no action be taken to fill the Field Representative 
position in the Marianas until after consultations with the Committee 
on a plan to address the activities of the former Ombudsman's Office?
    Answer. Yes. I will take this message back to the Department.
                                 ______
                                 
   Responses of Esther P. Kiaaina to Questions From Senator Murkowski

    Question 1. Nearly half of the Office Insular Affairs' budget 
($200+ million) goes to the Freely Associated States under our Compacts 
of Free Association yet the Office only has two employees in those 
nations (one each in the Marshall Islands and Micronesia-plus four in 
Hawaii). Do you believe there is a need for additional staffing in 
those nations to oversee this amount of funding?
    Answer. It is my understanding that in addition to staff listed 
above; several staff in the Washington, DC office spend most of their 
time on compact issues. However, resources for additional staff are 
limited. I would be happy to review whether an increase is feasible if 
I am confrrmed as the Assistant Secretary.
    Question 2. The U.S. Virgin Islands is facing tough economic times 
with the shutdown of the Hovensa petroleum refinery both from a loss of 
jobs and income as well as from higher energy costs. If confirmed, what 
action do you believe the Office of Insular Affairs should take to help 
the people of the USVI?
    Answer. I am aware of challenges facing U.S. territories and freely 
associated states due to high energy costs. With regard to the U.S. 
Virgin Islands, the closure of the Hovensa petroleum refinery has 
caused harm to the USVI's economy, including jobs losses and higher 
energy costs. It is my understanding that the Interagency Group on 
Insular Areas has met to discuss concerns surrounding the energy 
crisis, and federal partners from the Departments of Energy, Commerce 
and Agriculture continue to participate in discussions on key energy 
issues and possible solutions with key USVI officials. If confirmed, I 
look forward to engaging with Congress, our federal partners, energy 
research entities and USVI officials to find solutions to this problem.
    Question 3. Earlier this year Congress passed, and the President 
signed into law, legislation granting the Northern Marianas 
jurisdiction over submerged lands similar to what the other states and 
territories already had, however, it is my understanding that those 
lands have not yet been conveyed to the CNMI. Could you give me an 
update on the status of that conveyance?
    Answer. It is my understanding that the conveyance of the submerged 
lands surrounding the CNMI will take place by operation of law 120 days 
after the date of enactment. I do not have any information about 
current discussions within the Administration at this time. If 
confirmed I would be happy to discuss this important matter.
    Question 4. Could you explain the decision to close the Office of 
the Federal Ombudsman in Saipan? What assurances do you have from the 
Departments of Labor and Homeland Security that foreign workers will 
have access to federal assistance if warranted?
    Answer. Although I am not at the Department, it is my understanding 
that in 2009 the Department of Homeland Security took over immigration 
responsibilities in the Commonwealth ofNorthern Mariana Islands 
pursuant to the terms of the Consolidated Natural Resources Act. I have 
been told by the Department that in the past several years, the work of 
the Ombudsman's office has shifted dramatically from working on serious 
labor and trafficking violations to assisting individual alien workers 
with more routine immigration and labor issues.
                                 ______
                                 
  Responses of Chris Smith to Questions From Senator Murkowski topher

    Question 1. The NERA study used 2011 data from the Energy 
Information Administration's Annual Energy Outlook. At the time the 
study was commissioned, was the AEO from 2012 or 2013 available?
    Answer. No, the NERA study used projections from EIA's natural gas 
export study, which was commissioned on August 15, 2011 and completed 
on January 19, 2012. The EIA natural gas export study used 2011 
projections, which at the time were the most recent projections 
available.
    Question 2. To what extent does the Department of Energy 
incorporate the most recent EIA data when assessing LNG export 
applications? Does it use AEO 2013, for example?
    Answer. The Department is constantly monitoring the natural gas 
market, which includes the latest EIA projections, such as AEO 2013. 
The Department discussed the comparison of AEO 2011 with AEO 2013 in 
its recent LNG export authorizations.
    Question 3. When comparing the EIA projections from AEO 2011 to the 
projections from AEO 2013, is more or less natural gas expected to be 
produced domestically? Is more or less LNG expected to be exported from 
the United States.
    Answer. AEO 2013 projects domestic natural gas production to be 
greater than the amount projected in AEO 2011. AEO 2013 also projects 
higher exports of LNG than AEO 2011.
    Question 4. Record levels of U.S. natural gas are currently being 
exported to Mexico and Canada via pipeline. Has the Department of 
Energy observed any harmful impact to overall energy markets and supply 
as a result of this increase?
    Answer. Although exports of natural gas to Canada and Mexico in 
2012 were at record levels of 1.0 trillion cubic feet (Tcf) and 0.6 
Tcf, respectively, the United States imports significantly more natural 
gas from Canada than it exports to either country and remains a net 
importer of natural gas. The Department notes that net pipeline imports 
of natural gas have declined from a peak of 3.4 Tcf in 2001, to 1.4 Tcf 
in 2012, while domestic production of dry natural gas has risen from 
19.6 Tcf in 2001 to 24.1 Tcf in 2012. Wellhead natural gas prices 
declined during this period. The Department has not observed any 
harmful impacts to overall energy markets and supply resulting from the 
decrease in net natural gas imports via pipeline.
    Question 5. Do any memoranda of understanding or other joint 
agreements govern the Office of Fossil Energy's relationship with the 
Department of State's Bureau of Energy Resources?
    Answer. No, the Office of Fossil Energy does not have formal 
agreements with the Department of State's Bureau of Energy Resources. 
As we do with other interagency partners with which we share equities, 
the Office of Fossil Energy has a good working relationship with the 
Department of State, particularly on collaboration on shale gas and 
bilateral activities with China, Canada, and Norway.
    Question 6. How would you describe the national interest in 
promoting best practices in fossil energy development overseas, either 
through partnership with the Department of State or other programs?
    Answer. Promoting best practices in fossil energy development 
overseas serves American interests for economic, environmental and 
national security reasons.
    CCS Role in EPA Climate Rules
    Question 7a. The Environmental Protection Agency is writing climate 
regulations for new and existing power plants and the agency looks to 
be headed towards mandating the use of carbon capture and storage 
(CCS). I understand that the position you are nominated for isn't 
directly responsible for these rules, but in the interagency process 
and as a technical matter you can and should be in a position to speak 
to the readiness of CCS.
    In your opinion is CCS currently commercially available for power 
plant applications?
    Answer. CCS technology has been and continues to be deployed in a 
range of projects. There are twelve large-scale CCS projects in 
operation worldwide today. CCS technology has been and continues to be 
deployed with CO<INF>2</INF> captured from gas processing and 
industrial separation. By 2020 another eight projects, including the 
first commercial scale electric power plants with CCS, are anticipated 
to come online. If confirmed, I will continue to work with industry in 
advancing CCS technologies to continue reducing the cost of capture, 
making CCS more efficient, and preparing for wider-scale deployment in 
future years.
    Question 7b. Do you believe that the affordability of installing 
and operating CCS equipment should be accounted for in defining the 
phrase ``commercially available''?
    Answer. All components of CCS, including large-scale CO<INF>2</INF> 
capture, transportation, and multi-million ton per year injection, have 
been demonstrated world-wide and in the U.S. for many years. We expect 
to see substantial cost reductions brought into industrial practice 
with continued R&D and as large-project deployments advance from first-
of-a-kind plants.
    Question 7c. Please outline the work DOE generally and areas under 
your direction specifically are taking to enable this technology to 
become a practical reality?
    Answer. The Office of Fossil Energy (FE) is addressing the 
challenges of widespread deployment of clean coal technologies by 
sponsoring large-scale demonstrations and investing in advanced 
technologies to reduce costs.
    FE is funding, in partnership with industry, eight major 
demonstration projects that will help address the first-of-a-kind 
technology risks that come with deploying innovative CCS technologies. 
In order to reduce costs and make carbon capture more efficient, the 
Office of Fossil Energy has a robust research and development program 
investing in advanced and revolutionary CCS technologies.
    FE is also focused on carbon storage, developing technologies with 
industry to ensure the safe and permanent storage of the captured 
CO<INF>2</INF> in different geologic formations and sequestering large 
volumes of CO<INF>2</INF> through seven Regional Carbon Sequestration 
Partnerships. These large volume tests and related applied science will 
provide the field experience to develop and validate technologies that 
can predict storage capacity, validate storage permanence, and develop 
best practices.

    Responses of Christopher Smith to Questions From Senator Portman

    Question 1. As I asked during the your hearing, I would appreciate 
it if you can provide this committee a detailed report on DOE's 
existing CCS programs that includes: an assessment of the success of 
individual programs, and an assessment of the estimated time frame and 
estimated cost to federal taxpayers to get CCS technologies to 
commercial viability?
    Answer. If confirmed, I will commit to providing the committee 
detailed information on DOE's existing CCS programs. We are committed 
to transparency and our proud of our technology program. The Office of 
Fossil Energy will provide detailed information outlining our key 
programs and their progress.
    Question 2. If confirmed, will you increase, decrease, or maintain 
the current pace of NFTA applications for LNG export from the United 
States?
    Answer. If confirmed, I will continue to expeditiously process the 
applications on a case-by-case basis.
    Question 3. At the current DOE pace, some projects that were in the 
queue this time a year ago may not have a decision on NFTA 
authorization much before 2016. Is a three year wait appropriate?
    Answer. When DOE makes a public interest determination on an 
application, an order is released that explains the detailed reasoning 
for making the decision. These are complex documents in which DOE must 
address a wide range of issues, including economic, environmental and 
energy security and supply issues, as well as claims and counter-claims 
made in the public comments. If confirmed, I will continue to process 
these applications as expeditiously as possible.
    Question 4. Currently, DOE is processing NFTA applications one at a 
time, in the order that the applications were received. Is there an 
opportunity for DOE to process the applications concurrently?
    Answer. The Department of Energy is reviewing the LNG export 
applications on a case-by-case basis, weighing any circumstances that 
may be unique to an individual application. The Department looks at the 
potential cumulative impacts of each conditional authorization as it 
goes forward.
    Question 5. Since one of the strategic focus areas of the 
administration is natural gas, what consideration has been given to 
accelerate the application of technology developed in the Solid State 
Energy Conversion Alliance (SECA) program for highly efficient electric 
power generation directly from natural gas?
    Answer. In response to recent budget constraints, the Office of 
Fossil Energy's Clean Coal program has prioritized near-term CCS 
technologies deployable in the 2020 timeframe. As a result, development 
of solid oxide fuel cells for 100-plus megawatt coal-based systems, a 
longer-term transformational technology, was not supported by the FY 
2014 budget request.
    However, the Solid State Energy Conversion Alliance (SECA) Cost 
Reduction program achieved its 2010 goals performance and durability. 
Progress under this program has brought solid oxide fuel cell 
technology to a point where it is approaching commercial feasibility 
for small scale (sub-megawatt) applications that can be supported by 
investment from industry (e.g., Bloom Box).
    Question 6. With the growing reserves of natural gas, and the move 
to natural gas as a fuel for electric power generation, how is natural 
gas utilization being addressed to ensure lowest cost and highest 
efficiency electric power generation?
    Answer. The Office of Fossil Energy does not have a technology 
program on natural gas utilization. The Department is focused on 
ensuring a safe and environmentally sustainable supply of natural gas. 
That said, some of the Office of Fossil Energy's work under the coal 
program is applicable for natural gas power generation, such as carbon 
capture and plant efficiency technologies.
    Question 7. Does the DOE see a relationship between near-term 
natural gas application of SECA technology for distributed generation 
and the long-term goal of central power generation with gasified coal?
    Answer. Yes. Many of the core challenges facing SECA technology 
commercialization are independent of fuel type (i.e., natural gas or 
syngas) and success in natural gas commercialization may support 
longer-term commercialization with other carbon-based fuels.

   Responses of Christopher Smith to Questions From Senator Landrieu

    The Department of Energy has begun to grant authorizations for the 
export of LNG to non-FTA countries. These orders have generally 
authorized export for a flat 20-year term commencing with first LNG 
export from a particular LNG export facility. Given the billions of 
dollars of investment needed to develop and build LNG export 
facilities, these projects generally require long-term commercial off-
take agreements with customers to secure financing. It is common in the 
LNG industry for these long-term agreements to have a 20-year term 
commencing with full commercial operations of the LNG export facility. 
Therefore, the term of the export authorizations raises potential 
commercial and financing issues for LNG export projects.

    First, testing and commissioning of LNG facilities will require the 
production of small quantities of LNG. These quantities may be 
insufficient to trigger start of the customer contracts. But it is 
unclear whether it will trigger the start of the DOE authorization. If 
this timing mismatch occurs, it may impair the ability of proposed LNG 
export projects to raise the required financing that is supported by 
the revenues under those agreements.
    Second, LNG export projects are commonly designed to have multiple 
LNG production units, or trains, that are constructed, tested and 
commence operations sequentially over a multi-year period, resulting in 
a ramping up of production at an LNG export facility. A flat 20-year 
term of export authorization that is triggered by first export ignores 
this reality, and potentially leaves LNG export projects with 
insufficient authorization to meet their commitments under commercial 
off-take agreements, even those with an equivalent 20-year term.
    Question 1. Is the Department willing to issue clarifications on 
this issue so that the necessary commercial off-take agreements and 
substantial financing needs for these projects are supported by the 
regulatory approvals backing them?
    Answer. The 20-year term begins from the date of first export to a 
non-FTA country, not the date of first liquefaction. Accordingly, the 
production of small quantities of LNG for testing and commissioning 
will not trigger the 20-year term.
    In imposing this condition, the Department is mindful that LNG 
export facilities are capital intensive and might ramp up over a multi-
year period. Parties are free to request clarification or rehearing 
regarding the conditions that apply to their final authorizations. The 
Department will respond to all such requests in the context of those 
proceedings.

  <bullet> I have some concern regarding the current pace of permitting 
        for LNG export applications as well. I see that some projects 
        that were in the queue this time a year ago may not even 
        receive NFTA approval much before 2016.

    That's a three-year wait before getting NFTA approval--not two 
months. This places the financing and contract agreements for these 
facilities in jeopardy, and risks the economic benefit they promise.
    Question 2. What is your plan to speed up the process to match the 
critical commercial window so the US captures the greatest possible 
opportunity? What angles have you explored to move this forward more 
quickly so that qualified projects can capture the opportunity for the 
U.S.?
    Answer. When DOE makes a public interest determination on an 
application, an order is released that explains the detailed reasoning 
for making the decision. These are complex documents, in which DOE must 
address a wide range of issues, including economic, environmental and 
energy security and supply issues, as well as claims and counter-claims 
made in the public comments. If confirmed, I will continue to process 
these applications as expeditiously as possible.

   Responses of Christopher Smith to Questions From Senator Barrasso

    Question 1. On October 29, 2013, before the House Committee on 
Science, Space, and Technology, your predecessor, Charles D. McConnell, 
stated that ``[t]he cost of current CO<INF>2</INF> capture technology 
is much too high to be commercially viable.'' He explained that 
``[t]echnology exists for separation and capture of CO<INF>2</INF> at 
the plant, but it increases the cost of generated electricity by about 
80%.'' Finally, he noted that ``affordable solutions may be decades 
away with the current level of funding.'' Do you agree with Mr. 
McConnell's statements? If not, why not?
    Answer. CCS (with and without enhanced oil recovery EOR or other 
utilization) has been deployed at 12 facilities world-wide. The 
technology components have been tested at large-scale and integrated 
projects at medium-scale (approximately 100 megawatts). As such, I do 
believe that CCS is ready to deploy on new power plants. If confirmed, 
my job will be to continue to reduce the technical risk and lower costs 
to provide the widest set of options for clean fossil energy deployment 
in the US by US companies.
    I believe we have already made significant progress. During the 
Obama Administration, DOE has made an approximately $6 billion 
commitment to accelerate deployment of clean coal technologies, 
including technologies to capture carbon dioxide from coal plants. All 
components of CCS, including large-scale CO<INF>2</INF> capture, 
transportation, and multi-million tons per year injection, have been 
demonstrated world-wide and in the US for many years. We expect to see 
substantial cost reductions brought into industrial practice with 
continued R&D and as large-project deployments advance from first-of-a-
kind plants. This has been the course of many other energy 
technologies, including wind, solar, natural gas, and vehicle 
efficiency.
    Question 2. Some argue that power plant owners which deploy carbon 
capture technology will be able to recoup part of their costs by 
selling carbon dioxide for the purposes of enhanced oil recovery (EOR). 
However, EOR only takes place in certain areas of the country, 
specifically in states with aging oil fields and a carbon dioxide 
pipeline network. Is it reasonable to assume power plants throughout 
the country will be able to sell carbon dioxide for the purposes of 
EOR? Is EOR really a means for power plants nationwide to offset the 
costs of deploying carbon capture technology?
    Answer. EOR currently represents about 2 percent of oil production, 
or 0.3 bbl/day. A study carried out for the EIA suggested that 3M bbl/
day might be produced domestically with CO<INF>2</INF> EOR, and EOR is 
part of several of the CCS projects currently being supported. While 
EOR currently only takes place in certain areas of the country, those 
areas will serve as critical commercial opportunities that will produce 
domestic oil and provide revenues as we drive down the costs of CCS 
technology nationwide. All would benefit from the cost reduction and 
learning-by-doing that comes from increased CCS deployment. In 
addition, those projects and investments would anchor expanded 
CO<INF>2</INF> pipeline infrastructure, which will ultimately support 
and even attract companies who wish to take advantage of CO<INF>2</INF> 
storage natural resource.
    Question 3. Do you believe that carbon capture and storage 
technology has been ``adequately demonstrated'' as defined pursuant to 
section 111 of the Clean Air Act (42 U.S.C. 7411)?
    Answer. Whether a technology is ``adequately demonstrated'' within 
the meaning of the Clean Air Act is an issue committed to EPA's 
discretion. DOE does not make that determination.
    That said, there are twelve large projects in commercial operation 
today demonstrating CCUS around the world. All components of CCS, 
including large-scale CO<INF>2</INF> capture, transportation, and 
multi-million ton per year injection, have been demonstrated world-wide 
and in the U.S. for many years.

   Responses of Christopher Smith to Questions From Senator Cantwell

    Question 1. DOE's national laboratories, including PNNL, are a 
national asset with world class expertise in subsurface science and 
engineering.
    While new techniques in national gas production have dramatically 
changed our domestic energy outlook, it is imperative DOE fully utilize 
these capabilities to better understand and address environmental 
implications.
    We need to bring our best assets to bear in understanding the 
limits of natural gas recovery from shale, the potential for induced 
seismicity; and the best practices for protecting the environment. How 
do you plan to access the breadth of capability available in subsurface 
science and engineering, and apply it to the broader challenges within 
Fossil Energy's mission area? What are your plans to collaborate with 
offices across the Department on cross-cutting challenges in subsurface 
science and engineering?
    Answer. The Office of Fossil Energy is dedicated to utilizing the 
expertise and resources of the national laboratories. The National Risk 
Assessment Partnership (NRAP)--an initiative within the Office of 
Fossil Energy and led by the National Energy Technology Laboratory 
(NETL)--is a collaboration of national laboratories, including PNNL, 
that uses science-based prediction of engineered-natural systems to 
understand the long-term geologic storage of carbon dioxide.
    The Office of Fossil Energy has been working with the other program 
offices within the Department on understanding cross-cutting challenges 
in subsurface science and engineering, per direction from Secretary 
Moniz. If confirmed, I would be happy to brief you on all of the Office 
of Fossil Energy's subsurface activities and discuss your interests in 
subsurface science in the national interest.
    Question 2. DOE's solid-oxide fuel cell (SECA) program represents a 
highly successful partnership between the Department, its national 
laboratories and industry--working on bringing fuel cell technology to 
commercial readiness for high efficiency natural gas distributed 
generation applications. What are your plans to ensure Fossil Energy 
supports this program?
    Answer. In response to recent budget constraints, the Office of 
Fossil Energy's Clean Coal program has prioritized near-term CCS 
technologies deployable in the 2020 timeframe. As a result, development 
of solid oxide fuel cells for 100 plus megawatt coal-based systems, a 
longer-term transformational technology, was not supported by the FY 
2014 budget request.
    However, the Solid State Energy Conversion Alliance (SECA) Cost 
Reduction program achieved its 2010 goals performance and durability. 
Progress under this program has brought solid oxide fuel cell 
technology to a point where it is approaching commercial feasibility 
for small scale (sub-megawatt) applications that can be supported by 
investment from industry (e.g., Bloom Box).
    Question 3. Ramgen Power Systems, a small energy technology company 
in Washington state, is developing a unique shock wave compression 
technology that could reduce the cost of compressing carbon dioxide. 
Are you aware of this carbon dioxide compression research and 
development? Do you believe this technology could be applied to small 
engines for distributed generation uses? Will you look into the 
potential of this technology, if confirmed?
    Answer. I am aware of Ramgen Power Systems, who received $30 
million in funding through the American Recovery and Reinvestment Act, 
and their unique shock wave compression technology. NETL staff briefed 
me on the technology after an August visit. If confirmed, I will commit 
to looking into the potential of this technology for small engines for 
distributed generation.

    Responses of Christopher Smith to Questions From Senator Manchin

    Two weeks ago, there was a joint Committee hearing held in the 
House on the new EPA greenhouse gas regulations for new power plants. 
In that hearing, both Chuck McConnell, the former Assistant Secretary 
for Fossil Fuels (your predecessor and former boss) and Dr. Richard 
Bajura, an expert on clean coal and CCS technologies from West Virginia 
University, testified that CCS and CCUS technology is not currently 
commercially available and has not been adequately demonstrated.
    Chuck McConnell also testified that we need to bring the cost of 
CO<INF>2</INF> capture technology down if we're going to be able start 
using it on new power plants, and that the only way to do that is more 
research and more demonstrations.
    But last week, Secretary Moniz said that CCS technology is ready to 
meet the EPA new standard. He said this even as the projected costs of 
building the plant in Kemper County are double what they were initially 
expected to be.
    Question 1. I want to ask you directly: do you think carbon capture 
and storage (CCS) is ready to be deployed on all power plants? Please 
answer yes or no.
    Answer. CCS (with and without EOR or other utilization) has been 
deployed at 12 facilities world-wide. The technology components have 
been tested at large-scale and integrated projects at medium scale 
(approximately 100 megawatts). As such, I do believe that CCS is ready 
to deploy on new power plants. If confirmed, my job will be to continue 
to reduce the technical risk and lower costs to provide the widest set 
of options for clean fossil energy deployment in the U.S. by U.S. 
companies.
    As a follow-up question, Secretary Moniz has said in the past--to 
me personally and publically--that we will need to use CCS on natural 
gas power plants in the future to meet the President's Climate goals.
    Question 1a. So I want to ask you: if CCS is ready for coal power 
plants, shouldn't it have to be used on natural gas plants too? We know 
that we can capture the CO<INF>2</INF> from the stack: we've done it in 
West Virginia at the Mountaineer plant. The only reason we're not doing 
it now is that it's too expensive. So if CCS is ready, why are we only 
penalizing coal?
    Answer. As you know, EPA promulgated the rule creating a separate 
standard for coal and natural gas. While many CCS technologies are 
applicable for natural gas capture, there are key differences that need 
to be addressed.
    In order to be successful in the job that you are seeking, you will 
necessarily have to be an advocate for your programs, especially your 
coal program.
    Over the last several years this Administration has continued to 
shrink both the fossil energy and the coal budget, while doubling down 
on renewables and energy efficiency.
    Question 2. I know that you don't have complete control over 
funding, but will you go to the mat for coal and fossil R&D funding?
    Have you personally advocates for a larger coal budget within the 
Department in the past? If you did, what happened? Did the Secretary 
deny your request?
    Answer. During the Obama Administration, the Department has 
committed nearly $6 billion in clean coal technologies, including CCS 
research, development, and deployment. If confirmed, I will continue 
this commitment, within the budget constraints set by Congress.
    The Department of Energy gave a $270 million dollar grant to 
Southern Company to help build the next-generation coal-power plant 
with carbon capture they're building in Kemper County, Mississippi. We 
all know that they are way over cost, almost at $5 billion dollars when 
initially it was thought the plant would cost $2.4 billion. So they're 
over double the cost.
    Tom Fanning has said that one of the reasons they're over cost is 
that they didn't do enough engineering work up front, before they 
started working on the plant. He hasn't gone into any more detail 
though. From what I understand, he hasn't given your Department any 
more information either, and if he has, your department hasn't 
published it.
    Question 3. I believe the only way we can learn is to learn from 
our mistakes. Can you promise me that if you're confirmed, you will get 
to the bottom of where the cost overruns happened, and publish a report 
on it immediately? It should only be fair that they provide your 
department with those numbers since helped fund the plant, correct?
    Answer. Under the cooperative agreement between the Department of 
Energy and Southern Company, there are terms for data sharing so the 
Department can help apply best practices to other projects going 
forward. If confirmed, I will work to understand how and why the cost 
overruns happened.
    As you know, I have a keen interest in the National Energy 
Technology Laboratory in Morgantown. NETL is at the forefront of 
researching how to develop and use fossil energy in an environmentally 
responsible fashion. They've also been very successful, with scores of 
R&D 100 awards in the last decade, and numerous Federal Laboratory 
Consortium awards for Excellence in Technology Transfer. In short, NETL 
is great lab, doing great things for the fuels that we use the most, 
and getting those technologies to the marketplace.
    NETL is also unique in that it operates as a Government-owned, 
Government-operated (GO-GO) facility. NETL's operating model is common 
throughout much of the Government, but not for the national labs.
    Question 4. If confirmed would you support the current GO-GO 
structure of NETL?
    Answer. The National Energy Technology Laboratory is a key resource 
for the Office of Fossil Energy and the Department of Energy. The staff 
at NETL serve the needs of the nation well and deserve support. If 
confirmed, I will continue to support NETL and look forward to 
opportunities to discuss NETL with you in the future.
    NETL has also traditionally had a role working in a broad range of 
DOE programs, most recently Energy Efficiency and Renewable Energy (EE/
RE) and the Office of Electricity Delivery and Energy Reliability (OE).
    Question 4a. Would you support the continued efforts of NETL in 
accomplishing these key aspects of DOE portfolio?
    Answer. Yes, I support NETL's work for the Office of Fossil Energy 
and other program offices.
    The National Energy Technology Laboratory has only had an interim 
Director since late September. I have not heard any updates during that 
time about any progress made in finding a new Director.
    I understand that this process does not occur overnight, but I am 
concerned that without a clear path to new leadership, operations and 
progress in critical research areas such as carbon sequestration will 
suffer. As such, I want to express my hope that the Department is 
moving with all appropriate speed on this task.
    Question 5. Can you provide an update on the progress in finding a 
new Director and an estimated month by which one will be appointed?
    Answer. We do not have an estimated time by which a new Director 
will be appointed, but we are committed to finding one expeditiously. 
We are driving the process with care and diligence, and would be happy 
to provide regular updates to your office.
    Question 6. There are programmatic barriers that limit the National 
Energy Technology Laboratory ability to grow its programs and 
capabilities beyond its historical fossil energy mission space. Would 
you be willing to help remove those barriers so that NETL can respond 
to opportunities to grow?
    Specifically, will you work to allow NETL to explore into other 
arenas of research, as have other labs and sections of DOE? This type 
of research has allowed other organizations to grow in DOE.
    Answer. Having a national laboratory focused on the fossil energy 
space is an invaluable national resource. If confirmed, I will look 
into potential opportunities for NETL expand their expertise in related 
areas.
    A recent NETL study reported that we could almost triple the amount 
of oil economically recoverable via Enhanced Oil Recovery (EOR), from 
over 20 billion barrels to 60 billion barrels, through advanced and 
next-generation EOR technologies and practices.
    Advanced technologies are needed to unlock this substantial 
domestic resource of ``stranded'' oils, however, this Administration 
consistently requests zero funding for Department of Energy oil 
research.
    Question 7. My question to you Mr. Smith is--given this significant 
potential and all the associated benefits to our nation if we develop 
this ``stranded'' oil resource, would you, if confirmed, advocate for 
research funding focused on Enhanced Oil Recovery, including funding 
for carbon dioxide enhanced oil recovery technologies?
    Answer. EOR currently represents about 2 percent of oil production, 
or 0.3 bbl/day. A study carried out for the EIA suggested that 3M bbl/
day might be produced domestically with CO<INF>2</INF> EOR, and this is 
part of several of the CCS projects currently being supported. Such a 
factor of ten increase in CO<INF>2</INF> EOR compared with today would 
require capture of over five hundred megatons of CO<INF>2</INF> from 
power plants and/or appropriate manufacturing.
    Five out of the eight major CCUS demonstration projects include an 
EOR component. If confirmed, I will continue to focus on the 
opportunities for utilizing captured CO<INF>2</INF> facilities.
    The Department of Energy's research portfolio seems void of 
research aimed at improving the efficiency of natural gas production 
from shale formations and other unconventional formations, and in 
maximizing resource recovery. Such research would have widespread 
benefits for many businesses and for our nation.
    Question 8. That being the case, do you recognize the value in 
production-related research and would you actively work to secure 
funding from Congress through the DOE Office of Fossil Energy to 
conduct this research?
    Answer. DOE played a significant role in the research and 
development that has led to U.S. industry greatly increasing our 
Nation's natural gas and oil production from shale. The Office of 
Fossil Energy currently funds R&D on ensuring the safe and 
environmentally sustainable supply of natural gas. NETL also oversees 
research expenditures from the Royalty Trust Fund created in the 2005 
Energy Policy Act. This research program supports environmentally sound 
unconventional natural gas production, among other programs such as 
ultra-deep water and small producers. If confirmed, I will work to 
ensure the Office of Fossil Energy's research ensures the safe and 
environmentally sustainable supply of natural gas.
    Many of the landowners and businesses alike involved in the 
recovery of Shale gas are concerned about the usage of water in that 
process. Given the enormous economic potentials of this shale gas, such 
a concern should be addressed. To reduce the Environmental footprint of 
Natural Gas production, ``a comprehensive program is needed to address 
the issues of water use and backflow and produced water in 
unconventional gas production,'' as recommended in a report issued from 
an MIT study group chaired by Dr. Moniz in 2011.
    Question 9. Would you support the funding of a program in the DOE 
Office of Fossil Energy to accomplish such an important goal?
    Answer. As mentioned above, the Office of Fossil Energy currently 
funds R&D on ensuring the safe and environmentally sustainable supply 
of natural gas. NETL also oversees research expenditures from the 
Royalty Trust Fund created in the 2005 Energy Policy Act. These 
programs currently support research in water quality, availability, and 
management. The Department has recently pulled together a cross-cutting 
team to look specifically at the water and energy nexus and, if 
confirmed, I will continue to support that effort.
    The coal research and development portfolio is heavily focused on 
carbon capture and sequestration, yet it is clear that advances in 
other areas of coal technologies can have a significant impact on 
reducing emissions and costs associated with coal use. These types of 
incremental changes are an area where we have succeeded in the past and 
have a low risk profile.
    Question 10. Would you also support a robust suite of research 
programs into other coal related technologies including mining, 
advanced power efficiencies, combustion research, gasification, fuel 
cells, and coal-to-liquids?
    Answer. The Office of Fossil Energy has a robust R&D program for 
non-CCS clean coal technologies. The Advanced Energy Systems program 
explores advanced combustion systems, gasification systems and hydrogen 
turbines. The cross-cutting research program explores plant 
optimization technology and coal utilization science. If confirmed, I 
will continue to support a robust and comprehensive clean coal 
technologies program.


                              Appendix II

              Additional Material Submitted for the Record

                              ----------                              

Statement of Tina Cabiles-Carden, President, Hui Hawai'i, Utah Hawaiian 
                               Civic Club

    By way of introduction, Hui Hawai'i O Utah Hawaiian Civic Club is 
located in Salt Lake City, Utah and is one of sixty-eight units 
established nation-wide under the umbrella of the Association of 
Hawaiian Civic Clubs, which is based in Honolulu, Hawai'i. The first 
Hawaiian Civic Club was organized in 1918 by Prince Jonah Kalanianaole 
Kuhio, then Hawai'i's delegate to the U.S. Congress, and a group of 
civic-minded Hawaiian men who envisioned the pressing need for Native 
Hawaiians to engage in the county, state, and Federal levels of 
government. Hui Hawai'i O Utah members, together with other Native 
Hawaiians throughout Utah, continue to maintain strong cultural ties to 
Hawai'i while simultaneously being effective and contributing residents 
prepared to act on issues that affect our individual communities.
    Esther Puakela Kia'aina is such a committed Native Hawaiian leader. 
As president, I am writing in support of Ms. Kia'aina's nomination as 
Assistant Secretary of Insular Areas, United States Department of 
Interior. She has had exceptional training in schools of recognized 
excellence; a broad background in policy and planning in Hawai'i, U.S. 
Pacific Territories, Freely Associated States of Micronesia, and Asian 
and Pacific Islander issues; and applicable experiences in and at the 
Federal level which repeatedly prove her ability to administer all the 
responsibilities as Assistant Secretary of Insular Areas.
    After you have examined Ms. Kia'aina's credentials, we respectfully 
request your approval, together with the other members of the Committee 
on Energy and Natural Resources, of Esther Puakela Kia'aina's 
nomination as Assistant Secretary of Insular Areas, United States 
Department of Interior.
    Mahalo (thank you).
                                 ______
                                 
     Statement of Jobie M. K. Masagatani, Chairman, Hawaiian Homes 
                      Commission, Honolulu, Hawaii

    Aloha Chairman Wyden, Ranking Member Murkowski, and distinguished 
members of the Senate Committee on Energy & Natural Resources. Thank 
you for this opportunity to provide this testimony in support of 
President Obama's nomination of Ms. Esther Kiaaina. Ms. Kiaaina is very 
well qualified for this leadership position as she brings years of 
Washington experience and profound knowledge of insular areas to the 
Department of the Interior.
    Over her professional career, Ms. Kiaaina has demonstrated a strong 
committment to public service. Among her accomplishments is her work 
while on U.S. Senator Daniel K. Akaka's staff to achieve passage of the 
Hawaiian Home Lands Recovery Act (P.L. 1040942) nearly 20 years ago. As 
a result of this effort, the Department of Hawaiian Home Lands received 
a committment of 913 acres of Federal land to settle land use and 
ownership disputes between our agency and the Federal Government. This 
settlement marked a turning point in our agency's history, and these 
lands are now used to generate resources to support our public land 
trust and homestead program.
    In addition to this landmark legislation, Ms. Kiaaina's attention 
to Office of Management and Budget (OMB) Statistical Policy Directive 
No. 15 significantly revised the way the Nation collected data on 
Native Hawaiians. This has led to greater awareness regarding the needs 
of our population, and, as a result, more effective programs.
    In closing, Ms. Kiaaina has served Hawaii well as staff and as an 
advisor to members of our state's congressional delegation, as chief 
advocate of the Office of Hawaiian Affairs, and as first deputy of 
Hawaii's Department of Land and Natural Resources. With her experience 
and commitment to public service, she will be a tremendous asset to the 
Department of the Interior. For this reason, we strongly support this 
nomination and we ask your committee's favorable consideration. Mahalo 
nui loa (thank you very much).
                                 ______
                                 
                                 American Samoa Government,
                                                 November 11, 2013.
Hon. Ron Wyden,
Chairman, U.S. Senate Committee on Energy and Natural Resources, 
        Washington, DC.
    Dear Chairman Wyden:
    On behalf of the people of American Samoa, I wish to express our 
support for the confirmation of Ms. Esther P. Kia'aina as the new 
Assistant Secretary of the Office oflnsular Affairs, U.S. Department of 
the Interior.
    Ms. Kia' aina has long been an active and strong supporter for 
Pacific Island peoples. She has a long history of advocacy and 
compassion for issues impacting the lives of the Pacific Islanders.In 
these tough social and uncertain economic times, the U.S. territories 
need an Assistant Secretary that is well versed on the issues facing 
our people and local governments. We also need a voice in the Federal 
Government that has the cultural sensitivity to address our issues with 
understanding and relevance. Ms. Kia'aina will be a great 
representative of the peoples of the Pacific, as well as doing honor to 
the position of Assistant Secretary.
    It is with much respect that I ask for your support of Ms. 
Kia'aina's confirmation to be the next Assistant Secretary of the 
Office of Insular Affairs.
            Sincerely,
                                    Lolo Matalasi, Moliga ,
                                        Governor of American Samoa.
                                 ______
                                 
         Statement of Eddie Baza Calvo, Governor, Adelup, Guam

    I am writing in full support of Esther Kia'aina's nomination as the 
Assistant Secretary for Insular Affairs in the U.S. Department of the 
Interior. Esther was born on Guam, and is a native Hawaiian. She was 
the Chief of Staff of Guam's former Representative to Congress, Robert 
Underwood. I believe her background makes her intimately familiar with 
the issues facing the Insular Areas.
    I have personally been acquainted with Esther's family for years, 
and am proud to see a fellow islander be given the opportunity to serve 
her nation and her Pacific community. I believe her upbringing on Guam 
established roots that have kept her grounded to her heritage and laid 
the foundation for her career in public service. Ties to the islands 
and her experience in the highest levels of the Federal Government make 
her an ideal candidate for the position.
    Insular Area issues are complex because, although there are 
similarities, there are also vast differences between America's 
territories and states. We face similar challenges and our constituents 
have similar needs. Nevertheless, our different geographical locations, 
political status, economic abilities, and access to resources require a 
different approach to allow us to help ourselves and families. I am 
certain that our islands will greatly benefit from having an Assistant 
Secretary who realizes this and is committed to workable solutions for 
all territories.
    If confirmed her presence will benefit all the Insular Areas and 
the freely associated states. With Esther at the helm, we can begin 
positive discussions on critical, long-range policy decisions like 
climate change, self-determination, and other Federal matters that 
affect not just Guam, but all the Insular Areas.
    I recommend her swift contirmation so the next, promising chapter 
in territorial-Federal relations can begin.
                                 ______
                                 
              GUAM CHAMBER OF COMMERCE PARTNERS IN PROGRESS
                                                 November 12, 2013.
Hon. Ron Wyden,
Chairman, U.S. Senate Committee on Energy and Natural Resources, 
        Washington, DC.
Support for Esther Kia'aina Appointment as the Assistant Secretary for 
Insular Areas at the U.S. Department of the Interior

    Dear Chairman Wyden:
    On behalf of the Guam Chamber of Commerce, we write this letter of 
recommendation to support Guam-born Esther Kia'aina's appointment to 
serve as the Assistant Secretary for Insular Areas at the U.S. 
Department of the Interior.
    In addition to her current position as First Deputy Director of the 
Department of Land and Natural Resources in the State of Hawaii, Esther 
Kia'aina has more than 25 years experience in public policy and 
community outreach in Washington, D.C., Hawaii, and the Western Pacific 
Region.
    Throughout her tenure, Esther served as Chief Advocate for the 
Office of Hawaiian Affairs, Land Asset Manager at the Kamehameha 
Schools, Chief of Staff to Congressman Ed Case of Hawaii, Chief of 
Staff and Legislative Director to Congressman Robert Underwood of Guam, 
and Legislative Assistant to Senator Daniel Akaka of Hawaii.
    Esther and her family have very strong ties to Guam. Esther 
attended San Vicente Catholic School in Barrigada. Her parents, the 
late Melvin and Lorelei Kia'aina, operated a very successful local 
plant nursery business for many years and are fondly remembered by many 
of our island leaders and residents for their active involvement in the 
community and for their many business and civic contributions.
    These traits and qualities are clearly evident in Esther's 
professional and personal life. Having been born and rai sed in Guam, 
Esther is keenly aware of the issues and needs facing our island and 
has been instrumental in several key initiatives that have positively 
impacted Guam and the western pacific region including:

  <bullet> The Compact-Impact Reimbursement Act, which was included in 
        Public Law I 0809188, and provides $30 million annually in 
        Compact Impact Aid to Hawaii, Guam, and other impacted areas.
  <bullet> The Guam Land Return Act, which became Public Law 10609504, 
        and provides the Government of Guam with the first right of 
        refusal for all Federal excess lands on Guam.
  <bullet> The Guam Foreign Investment Equity Act, which became Public 
        Law 10709212, and provides greater forei gn investment 
        opportunities in Guam through lower tax rates.
  <bullet> The Guam War Claims Review Commission Act, which became 
        Public Law 10709133, and addresses claims arising from the 
        enemy occupation of Guam during World War II.
  <bullet> H.R. 4825, legislation authorizing Federal funding for Asian 
        and Pacific Islander Higher Education Serving Institutions.

    Esther is a strong advocate for empowering communities by promoting 
leadership and capacity building, sustainable solutions, economic-self 
sufficiency, and business opportunities.
    We unreservedly support Esther Kia'aina's appointment as the 
Assistant Secretary for Insular Areas at the U.S. Department of the 
Interior. We have no doubt that she will lead the department's efforts 
in coordinating effective Federal policy and serve the people of the 
Pacific region with commitment and distinction if appointed.
            Sincerely,
                                         GERALD S.A. PEREZ,
                                                          Chairman.
                                            DAVID P. LEDDY,
                                                         President.
                                 ______
                                 
       Hawaiian Affairs Caucus, Democratic Party of Hawaii,
                                                      Honolulu, HI.
Hon. Ron Wyden,
Chairman, U.S. Senate Committee on Energy and Natural Resources, 304 
        Dirksen Office Building, Washington, DC.
Hon. Lisa Murkowski,
Ranking Member, U.S. Senate Committee on Energy and Natural Resources, 
        304 Dirksen Office Building, Washington, DC.
Re: Esther P. Kia'aina Nomination (SB09366, 9:30a.m., 11/14/13)

    Aloha Senator Wyden and Senator Murkowski,
    As the Chair of the Hawaiian Affairs Caucus for the Democratic 
Party of Hawaii, I am honored to offer the strong support of the 
Hawaiian Affairs Caucus of the Democratic Party of Hawai'i for 
President Barack Obama's nomination of Ms. Esther Puakela Kia'aina to 
the post of the U.S. Department of the Interior's Assistant Secretary 
of lnsular Affairs.
    On a Federal level, Ms. Kia'aina has served as Chief of Staff for 
Congressional Delegate Robert Underwood (D-Guam) and Congressman Ed 
Case (D-Hawai'i) and has also served as Legislative Aide to Senator 
Daniel K. Akaka (D-Hawai'i). After returning to Hawai'i, Ms. Kia'aina 
led local, state, and Federal advocacy efforts as the Chief Advocate 
for the Office of Hawaiian Affairs. Currently, she serves as the Deputy 
Director of the Hawai'i Department of Land and Natural Resources 
overseeing 1.3 million acres of public land. Ms. Kia'aina's state and 
Federal experience in D.C. and the Pacific make her the ideal candidate 
for this position.
    Thank you in advance for this extraordinary opportunity to support 
a friend and mentor to the members of our caucus, Ms. Esther Kia'aina.
            Me ke aloha,
                                               Kuhio Lewis,
                                    Chair, Hawaiian Affairs Caucus.
                                 ______
                                 
 Statement of Judith T. Won Pat, Ed.D., Chair. Committee on Education, 
                    Public Library & Women's Affairs

    My name is Judith T. Won Pat, Speaker of the 32nd Guam Legislature 
and I am writing to express my strong support for the confirmation of 
Ms. Esther Kiaaina as the Assistant Secretary of Interior for Insular 
Areas.
    President Obama's decision to fill the position of Assistant 
Secretary for Insular Areas created new opportunities to strengthen the 
relationship between the Federal Government and the insular areas. The 
President's appointment has significantly improved communication and 
coordination of Federal policy affecting these insular communities, 
whose voices have often gone unheard. Thus, it is critically important 
that the President's nominee has the depth of knowledge of policy 
issues unique to the responsibilities of the Office of Insular Affairs 
and the experience to understand the complex nuances of Federal-
Territorial relationships.
    President Obama chose well by appointing Ms. Esther Kiaaina. She is 
a young woman with a long and distinguished record of public service 
and has served the Nation well in her past employment in Washington, 
D.C., Hawaii and the Pacific Region. Her in-depth understanding of the 
insular areas is beneficial to the continued strength and security of 
our nation as the world leader of freedom and democracy. I am confident 
that her long standing relationship with the leaders of the insular 
areas will create a collaborative environment building bridges where 
great divides existed between the Federal Government and the Insular 
Areas.
    Ms. Esther Kiaaina will make an outstanding Assistant Secretary for 
our nation. I urge the members of the Energy and Natural Resources 
Committee to confirm her appointment as the Assistant Secretary of 
Interior for Insular Areas.
                                 ______
                                 
     Statement of Sherry Campagna, CEO, Kamaka Green, Honolulu, HI

    As you know, Esther Kiaaina will be heading to D.C. today to begin 
preparations for her Nov. 14th confirmation hearing to be the Assistant 
Secretary for Insular Affairs at the Interior Department.
    I just wanted to send you a note letting you know that as a 
Hawaiian business owner, Native Hawaiian, sustainability advocate, 
human rights advocate and member of the YWCA's Board of Directors, I 
wholeheartedly give Esther my complete support and I look forward to 
her confirmation. She is without question the right person for this 
job.
                                 ______
                                 
                            Kanakamoli Religious Institute,
                                                      Honolulu, HI.
Hon. Ron Wyden,
U.S. Senate, Committee on Energy and Natural Resources, Washington, DC.
    Dear Chairman Wyden,
    I am a member of the Native Hawaiian community, and have been 
active in Hawaiian Affairs since 1980.
    I participated in the NATIVE HAWAIIAN STUDY COMMISSION, in 1983 in 
Washington, D.C., and also locally with the FEDERAL--STATE TASK FORCE 
ON HAWN HOME LANDS; as well as many hearings with the AKAKA BILL over 
the years since.
    I have known ESTHER KIAAINA for decades during this extended 
process, and consider her a valued colleague of great stamina and 
wisdom, with Aloha, for her people and island home.
    Hawai`i's role in the Pacific, at the apex of the Polynesian 
Triangle, is expanding during this global pivot to Asia; and our shared 
cultural, economic, and ecological concerns with all of the Pacific 
islands are also increasing.
    I full-heartedly support her Presidential nomination to the 
position of; Assistant Secretary for Insular Affairs at the Interior 
Department.
            Mahalo nui loa, Ms.
                                         Toni Auld Yardley.
                                 ______
                                 
                                    Kauwahi'Anaina Hawai'i,
                 Hawaiian Civic Club, Provo, UT, November 11, 2013.
Hon. Ron Wyden,
Chairman, Committee on Energy and Natural Resources, U.S. Senate, 221 
        Dirksen Senate Office Building, Washington, DC.
Hon. Mike Lee,
U.S. Senate Member, U.S. Senate Committee on Energy and Natural 
        Resources, 316 Hart Senate Office Building, Washington, DC.
    Dear Senator Wyden and Senator Lee.
Re: Nomination of ESTHER PUAKELA KIA'AINA as Assistant Secretary of 
Insular Areas, United States Department of Interior

    By way of introduction, Kauwahi'Anaina Hawai'i Hawaiian Civic Club 
is located in Provo, Utah and is one of sixty-eight units established 
nation-wide under the umbrella of the Association of Hawaiian Civic 
Clubs, which is based in Honolulu, Hawai'i. The first Hawaiian Civic 
Club was organized in 1918 by Prince Jonah Kalanianaole Kuhio, then 
Hawai'i's delegate to the U.S. Congress, and a group of civic-minded 
Hawaiian men who envisioned the pressing need for Native Hawaiians to 
engage in the county, state, and Federal levels of government. Kauwahi 
'Anaina's members, together with other Native Hawaiians throughout 
Utah, continue to maintain strong cultural ties to Hawai'i while 
simultaneously being effective and contributing residents prepared to 
act on issues that affect our individual communities.
    Esther Puakela Kia'aina is such a committed Native Hawaiin leader. 
As Kauwahi 'Anaina's president, I am writing in support of Ms. 
Kia'aina's nomination as Assistant Secretary of Insular Areas, United 
States Department of Interior. She has had exceptional training in 
schools of recognized excellence; a broad background in policy and 
planning in Hawai'i, U.S. Pacific Territories, Freely Associated States 
of Micronesia, and Asian and Pacific Islander issues; and applicable 
experiences in and at the Federal level which repeatedly prove her 
ability to administer all the responsibilities as Assistant Secretary 
of Insular Areas.
    After you have examined Ms. Kia'aina's credentials, we respectfully 
request your approval, together with the other members of the Committee 
on Energy and Natural Resources, of Esther Puakela Kia'aina's 
nomination as Assistant Secretary of Insular Areas, United States 
Department of Interior.
            Mahalo (thank you),
                                          CAROL N. JOHNSON,
                                                         President.
                                 ______
                                 
                                  Barrigada Mayor's Office,
                                   Hagatha, Guam, November 6, 2013.
Hon. Madeleine Z. Bordallo,
Guam District Office, Capitol Plaza Suite, 107, 120 Father Duenas 
        Avenue, Hagatna, Guam.
Nomination of Ms. Esther Puakela Kia'aina to serve as Assistant 
Secretary for Insular Affairs, Department of Interior.

    Dear Congresswoman Bordallo:
    Hafa Adai and Greetings from Guam! On behalf of Vice Mayor Jessie 
P. Bautista, members of the Barrigada Planning Council, please find 
copies of our testimonies supporting the appointment of Esther Puakela 
Kia'aina to serve as Assistant Secretary for Insular Affairs, 
Department of Interior.
    As you well know, Esther was born in Guam and attended San Vicente 
Catholic School before departing to further he education. We are 
confident that Esther will bring extensive expertise coupled with a 
keen understanding of the issues facing the U.S. territories and the 
freely associated states. More importantly, as a resident of Hawaii, 
Esther has strong connections to Pacific islanders and with her 
experience on Capitol Hill, she will be a tremendous asset to the 
Department of Interior as the Federal govemment continues to strengthen 
the health, safety and welfare of the Insular Areas.
    Thank you for your time, and we appreciate your assistance in 
insuring that our testimonies are submitted to the Senate Committee on 
Energy and Natural Resources.
            Sinseramente,
                                              June U. Blas,
                                                             Mayor.
                                        Jessie P. Bautista,
                                                        Vice Mayor.
                                 ______
                                 
                                 Municipality of Barricada,
                                Barrigada, Guam, September 5, 2013.
Nomination of Ms. Esther Puakela Kia'aina to serve as Assistant 
Secretary for Insular Affairs, Department of Interior.

    Dear Chairman Wyden
    Hafa Adai and Greetings from Guam! On behalf of Vice Mayor Jessie 
P. Bautista, members of the Barrigada Planning Council, we extend our 
congratulations and support of Esther Puakela Kia'aina to serve as 
Assistant Secretary for Insular Affairs, Department of Interior.
    Having grown up in Guam and Hawaii, we know that Esther Puakela 
Kia'aina will be the strongest possible asset to the Interior 
Secretary. After graduating from the University of Southern California 
in 1985, Esther served as an intern to then Senator Daniel Inouye in 
Washington, D.C. She also worked for then Senator Daniel Akaka during 
the 1990's, and as a Chief of Staff for Congressman Robert Underwood of 
Guam and former Congressman Ed Case.
    When she returned to Hawaii, Esther Kia'aina served as a Land Asset 
Manager for the Kamehamcha Schools before beginning her work for the 
Office of Haw<liian Affairs. Recognizing her organizational skills, and 
commitment to the people of Hawai'i, Esther was nominated by Governor 
Abercrombie to serve as Deputy Director of the Hawai'i Department of 
Land and Natural Resources. We have heard many glowing reports of her 
work and more importantly, we are confident that with her influence she 
will continue to encourage our proud tradition of involvement in 
worthwhile political causes.
    Thank you for your time and we look forward to your Committee 
recommending confirmation of Ms. Esther Puakela Kia'aina to serve as 
Assistant Secretary for Insular Affairs, Department of Interior.
            Sincerely,
                                              June U. Blas,
                                                             Mayor.
                                        Jessie P. Bautista,
                                                        Vice Mayor.
                                 ______
                                 
                                Municipal Planning Council,
                                 Barrigada, Guam, November 5, 2013.
Hon. Ron Wyden,
Chairman, Energy and Natural Resources Committee Office, 304 Dirksen 
        Senate Building, Washington, DC.
Appointment of Esther Kia'aina, to serve as Assistant Secretary of the 
Department of the Interior

    Dear Mr. Chairman and Members of the Committee:
    Hafa Adai and Greetings from Guam! As a member of the Barrigada 
Planning Council, we extend my congratulations and support of Esther 
Puakela Kia'aina to serve as Assistant Secretary for Insular Affairs, 
Department of the Interior.
    Born in Guam to Native Hawaiian parents, Esther Kia'aina will bring 
extensive expertise coupled with a keen understanding of the issues 
facing the U.S. territories and the freely associated states. We 
believe that with her upbringing, career experiences and genuine 
commitment to the insular areas provides her with the requisite 
credentials to serve as Assistant Secretary. More importantly, as a 
resident of Hawaii, Esther has strong connections to Pacific islanders 
and with her experience on Capitol Hill, she will be a tremendous asset 
to the Department of Interior as the Federal govemment continues to 
strengthen the health, safety and welfare of the Insular Areas.
    We are confident that Esther Kia'aina will not only serve President 
Obama and Interior Secretary Jewell with distinction, but that she will 
do her utmost to work for the best interests of the people of her home 
in Hawaii, Guam, the Northern Mariana Islands and the other insular 
areas as well. Esther is uniquely qualified for her new position within 
the Department of Interior by virtue of her many years with the U.S. 
Congress working on insular issues. When confirmed, we are confident 
that her commitment is to work toward improving the quality of life in 
the insular areas by providing the necessary leadership and insisting 
on measurable results. With Esther's leadership at the Department of 
the Interior, we are sure that the Federal govemment's commitment and 
cooperation will reflect a real and genuine concern for the islands and 
the peoples' welfare will be fortified.
    We would like to thank the President for his selection of Ms. 
Kia'aina and we look forward to working with her in her new position as 
Assistant Secretary in the days and years to come.
            Sincerely,
                                           James P. Castro.
                                 ______
                                 
                           Native Hawaiian Bar Association,
                               Honolulu, Hawaii, November 10, 2013.
Hon. Ron Wyden,
Chair, U.S. Senate Committee on Energy and Natural Resources, 
        Washington, DC.
Re: Nomination of Esther Puakela Kia'aina for Assistant Secretary of 
Interior (Insular Affairs)

    Aloha Chair Wyden and Committee Members.
    The Board of Directors of the Native Hawaiian Bar Association 
(NHBA) is honored to support the nomination of Esther Puakela Kia'aina 
as Assistant Secretary of Interior for Insular Affairs.
    The NHBA is an association of Native Hawaiian attorneys, judges, 
and other legal professionals that promotes excellence, unity, 
cooperation and the exchange of ideas among its members and in the 
larger community. Formed in 1992, NHBA strives for justice and 
effective legal representation for Native Hawaiians.
    Ms. Kia'aina has been a valued member of the NHBA since she 
returned home to Hawai'i from Washington, D.C., in 2007. She served on 
the NHBA board of directors from 2008 to 2012, when she resigned due to 
the press of her new responsibilities as First Deputy of the Hawai'i 
Department of Land and Natural Resources (DLNR). During her tenure on 
the NHBA board, we found her counsel and advice invaluable as we 
analyzed Federal initiatives affecting Native Hawaiians, particularly 
those relating to the relationship between the Native Hawaiian 
community and the Federal Government.
    In her position as Deputy Director at DLNR, Ms. Kia'aina has played 
a pivotal role in the management of Hawai'i's natural and cultural 
resources. DLNR oversees over 1.3 million acres of Hawai'i's lands, 
forests, and near-shore resources as well as its historical and 
cultural resources. Prior to joining DLNR, Ms. Kia'aina was the Chief 
Advocate at the State Office of Hawaiian Affairs for 2 years, where she 
lead OHA's efforts to reclaim Native Hawaiian lands and resources for 
the benefit of the Native Hawaiian community. Prior to that, she served 
as land manager of agricultural and conservation lands in Windward and 
Leeward O'ahu and on the island of Moloka'i for the Kamehameha Schools/
Bishop Estate, Hawai'i's largest private landowner and a charitable 
trust established to benefit Native Hawaiian children. Thus, Ms. 
Kia'aina has extensive expertise in managing lands, near-shore 
resources, water, and other natural resources as well as interacting 
and working with many community organizations.Ms. Kia'aina is a leader 
in the Native Hawaiian community, and also has strong roots in Guam. 
She spent her childhood years in Guam and worked for Guam's 
congressional representative, U.S. Congressman Robert A. Underwood, for 
4 years. From her many years of work experience as a legislative staff 
member for U.S Senator Daniel Akaka, and Chief of Staff for Congressman 
Underwood and then U.S. Congressman Ed Case, she is very knowledgeable 
about the issues facing the U.S. territories, particularly in the 
Pacific.
    Within the Native Hawaiian community, Ms. Kia'aina is known not 
only for her expertise on Federal issues affecting Hawai'i, but also 
for her intelligence and honesty, and her dedication to public service. 
She is an exceptional leader with the ability to work collaboratively 
with others, as demonstrated throughout her career, and in her care and 
concern for the community.
    Based on her years of experience, her intelligence, integrity, and 
commitment, the Board of Directors of the Native Hawaiian Bar 
Association enthusiastically supports the appointment of Esther Puakela 
Kia'aina as the Assistant Secretary of Interior for Insular Affairs. We 
strongly believe that Ms. Kia'aina has the professional qualifications 
and the personal qualities that will make her an outstanding Assistant 
Secretary. Mahalo for the opportunity to voice our support for Ms. 
Kia'aina's appointment.
            Sincerely,
                              Melody Kapilialoha MacKenzie,
    President, Board of Directors, Native Hawaiian Bar Association.
                                 ______
                                 
                                      Jude U. Hofschneider,
 Lieutenant Governor, COMMONWEALTH OF THE NORTHERN MARIANA ISLANDS.
Hon. Ron Wyden,
Chairman, U.S. Senate Committee on Energy & Natural Resources, 304 
        Dirksen Senate Building, Washington DC.
    Dear Chairman Wyden:
    Hafa adai yan tirow waami from the U.S. Commonwealth of the 
Northern Mariana Islands (CNMI).
    I write to express my full support for the nomination of Ms. Esther 
Puakela Kia'aina for Assistant Secretary of the Interior for Insular 
Affairs. As a former Lt. Governor, and now in my capacity as Governor 
of the Northern Mariana Island, I have had many opportunities to work 
with the Department of the Interior's Office of Insular Affair (OlA) 
since 2002, From my personal experience, I know the importance of 
having a leader with a passion and commitment for the overall well-
being of the Northem Marianas, all the U.S. insular areas and the 
Freely Associated States in the Pacific.
    Whil Ms. Kia'aina currently serves as the First Deputy Director of 
the Department of Land and Natural Resources for the State of Hawai'i, 
she also has extensive experience in government service. I am confident 
that if given the opportunity to serve as Assistant Secretary, she 
would provide the essential leadership for island territories like the 
CNMI at such a critical time. Surely, other insular areas face equally 
complex challenges, combining elements of fiscal policy, local culture 
and politics, and the individually distinct relationships each area has 
with the Federal government. An islander herself, Ms. Kia'aina 
understands the important relationship between the Federal Government 
and the insular areas the Assistant Secretary is responsibl for.
    With full confidence in her abilities I humbly ask for your 
favorable consideration for Ms. Kia'aina's nomination to serve as 
Assistant Secretary of the Interior tor Insular Areas.
    Sincerely,
                                              Eloy S. Inos.
                                 ______
                                 
                             Congress of the United States,
        House of Representative, Washington, DC, November 14, 2013.
Hon. Ron Wyden,
Chairman, Committee on Energy and Natural Resources, 304 Dirksen Senate 
        Building, Washington, DC.
Hon. Lisa Murkowski,
Ranking Member, Committee on Energy and Natural Resources, 304 Dirksen 
        Senate Building, Washington, DC.
    Dear Chairman Wyden and Ranking Member Murkowski
    I write in support of President Obama's nomination of Ms. Esther 
Kia'aina to be Assistant Secretary of the Interior for Insular Areas 
and urge the Committee to report her nomination favorably to the Senate 
for confirmation.
    Ms. Kia'aina is someone I have known since my days working for 
Senator Daniel K. Inouye in the 1980's, where she, too, was on staff. 
Throughout her career on Capitol Hill, Ms. Kia'aina's competence and 
diligence were acknowledged and rewarded. She completed her career here 
having served as Chief of Staff for two Members of Congress, Robert 
Underwood of Guam and Ed Case of Hawai'i.
    In addition to that experience in Congress, which will serve her 
well as Assistant Secretary, Ms. Kia'aina will bring to the position 
her own personal understanding, as a Pacific Islander, of the needs and 
challenges facing all the U.S. insular areas and the Freely Associated 
States.
    She certainly has the background and expertise to be Assistant 
Secretary of the Interior for Insular Areas; and I look forward to 
working with Ms. Esther Kia'aina once she is confirmed in that position 
by the U.S. Senate.
            Sincerely,
                            Gregorio Kilili Camacho Sablan,
                                                Member of Congress.
                                 ______
                                 
                                                The Senate,
                 State Capitol, Honolulu, Wawaii, November 7, 2013.
Hon. Ron Wyden,
Chairman, Oregon, U.S. Senate Committee on Energy & Natural Resources 
        Committee, 304 Dirksen Senate Building, Washington, DC.
Re: In Support of Esther Kia'aina to the position of Assistant 
Secretary for Insular Affairs for the U. S. Department of the Interior

    Dear Senator Wyden,
    Esther Kia'aina is a keiki o ka'aina, Native Hawaiian, born and 
nurtured in Wai'anae, O'ahu. She was educated by the Kameharneha 
Schools, UCLA, the George Washington University Law School, and the 
John Hopkins University Nitze School of Advanced International Studies.
    As the First Deputy of the State of Hawai'i Department of Land and 
Natural Resources (DLNR), Esther Kia'aina must work closely with all 
facets of State government as well as the community. She is a proven 
leader who is able to work together to bring people to a common goal.
    Esther Kia'aina has a long public service career having served as 
Chief of Staff to Congressman Ed Case of Hawai'i, and as Legislative 
Director to Guam Congressman, Robert Underwood. She was also Hawai'i 
Senator Dan Akaka's Legislative Assistant and has held positions as the 
Chief Advocate for the Office of Hawaiian Affairs and as the Land Asset 
Manager for the Kamehameha Schools, Hawai'i's largest private 
landholder. Ms. Kia'aina is well versed with Native Hawaiian issues as 
well as those within the U.S. Pacific Territories and Freely Associated 
States of Micronesia; and a wide array of other Asian and Pacific 
Islander issues.
    Hawai'i is blessed with Esther Kia'aina in that throughout her 
career she has put public service before self to work for the 
betterment of her community. Her gift to be able to understand others 
and bring people together has moved issues forward toward positive 
resolution.
    I whole heartedly recommend Esther Kia'aina to the position of 
Assistant Secretary for Insular Affairs for the U.S. Department of 
Interior.
    The people of the State of Hawai'i are immensely proud of her and 
know that she will accomplish much for the people of the Pacific and 
the U.S. Department of Interior.
            Hau'oli Ka Mana'o,
                                            Gilbert Kahele,
                                             Hawai'i State Senator.
                                 ______
                                 
    Statement of Hawai`i, Department of Land and Natural Resources, 
Chairman William J. Aila, Jr., on the Nomination of Esther P. Kia`aina 
to be Assistant Secretary of Insular Affairs for the Department of the 
                                Interior

    I write to strongly support the nomination of Esther P. Kia`aina to 
be the Assistant Secretary of Insular Affairs at the U.S. Department of 
the Interior.
    As the Chairman of the Department of Land and Natural Resources 
(DLNR), I oversee and manage Hawai`i's public lands and natural 
resources, including our near shore waters. DLNR has over 700 
employees. Our Department includes Forestry, Conservation and Coastal 
Lands, Engineering, Water Resources, Enforcement, Land, Aquatics, 
Historic Preservation, Parks, and Harbors.
    Esther is a valued member of my leadership team and an integral 
team player to our organization. As my First Deputy, she is responsible 
for helping me on the day-to-day operations of the department and is 
the primary liaison to the Hawai`i State Legislature in representing 
the Department to advance our legislative agenda.
    Her previous work experience on Capitol Hill, as well as her 
experience with other public and private land trusts in Hawai`i, bring 
a wealth of knowledge and skills set to DLNR. But most importantly, her 
ability to work well with others and her sense of humor is deeply 
appreciated by many. She is a delight to work with.
    Should she be confirmed, Hawai`i's loss will be the nation's gain. 
Esther is committed to the empowerment of island communities across the 
Pacific and the Caribbean. She is well qualified for the job to be 
Assistant Secretary and her accomplishments and actions speak for 
themselves.
    At DLNR, she has been pivotal in advancing watershed protection, 
invasive species control, increased enforcement, hunting opportunities, 
reforestation efforts with native plant species, and Hawaiian values in 
natural resource management.
    Apart from her concern for quality of life issues for the insular 
areas, Esther's experience at DLNR and her keen understanding of the 
need for sound natural resources management in small island communities 
will make her an asset for the Governors in these jurisdictions, as 
well as the Interior Department's leadership team.
    I highly recommend Esther P. Kia`aina to be confirmed by the U.S. 
Senate.
                                 ______
                                 
              State of Hawai'i, Office of Hawaiian Affairs,
                               Honolulu, Hawai'i, November 5, 2013.
Hon. Ron Wyden,
Chairman, U.S. Senate Committee on Energy and Natural Resources, 304 
        Dirksen Office Building, Washington, DC.
Hon. Lisa Murkowski,
Ranking Member, U.S. Senate Committee on Energy and Natural Resources, 
        304 Dirksen Office Building, Washington, DC.
Esther Kia'aina Nomination

    Aloha Senator Wyden and Senator Murkowski,
    As the Ka Pouhana (Chief Executive Officer) of the Office of 
Hawaiian Affairs, I am pleased to offer my most enthusiastic support 
for President Barack Obama's nomination of Ms. Esther Kia'aina to the 
post of the U.S. Department of the Interior's Assistant Secretary of 
Insular Affairs.
    The Office of Hawaiian Affairs (OHA) is an independent state agency 
created by Hawai 'i's Constitution to improve the lives of Native 
Hawaiians. As part of that mission, OHA recently launched the Native 
Hawaiian Presidential Appointment Project. Through this initiative OHA 
is encouraging highly qualified Native Hawaiians to consider serving as 
Presidential appointees, and supporting such nominees as they pursue 
public service. Although Ms. Kia'aina's nomination did not stem from 
our OHA process, her candidacy is a prime example of the sort of 
outcome OHA hopes to achieve through our efforts. Indeed, Ms. Kia'aina 
is a model nominee.
    Ms. Kia'aina is scheduled to appear before your committee on 
November 14, 2013 for her nomination hearing to be the Assistant 
Secretary of Insular Affairs. Please accept my unequivocal 
recommendation of Ms. Kia'aina whose skill and experience make her the 
ideal candidate. Her resume summarizes her many qualifications, not the 
least of which are the following. For 20 years, Ms. Kia'aina served as 
a role model for Native Hawaiians interested in Federal service, as she 
rose up the ranks to serve as Chief of Staff for Congressional Delegate 
Robert Underwood (D-Guam) and Congressman Ed Case (D-Hawai'i). After 
returning to Hawai'i, Ms. Kia'aina led OHA's local, state, and Federal 
advocacy efforts as our Chief Advocate. Currently, she continues to 
serve Hawai'i as the Deputy Director of the Hawai'i Department of Land 
and Natural Resources. This blend of senior-level state and Federal 
experience in D.C. and the Pacific will enable her to immediately be 
effective in her nominated position.
    Significantly, Ms. Kia'aina's experiences in being raised through 
to adulthood in an island environment and culture, and her extensive 
professional undertakings in addressing the unique challenges and 
opportunities inherent in island contexts, further makes her an ideal 
fit to fill the vacancy for the U.S. Department of the Interior's 
Assistant Secretary of Insular Affairs.
    Thank you in advance for this extraordinary opportunity to support 
Ms. Kia'aina's nomination. If you or your staff has any questions, 
please feel free to contact our OHA Washington, D.C. Bureau.
            'Owauihonomeka'oia'i'o,
                              Kamana'opono M. Crabbe, Ph.D.
                                KaPouhana, Chief Executive Officer.
                                 ______
                                 
                                 The Senate, State Capitol,
                                Honolulu, Hawaii, November 1, 2013.
Hon. Ron Wyden,
Chairman, U.S. Senate Committee on Energy & Natural Resources 
        Committee, 304 Dirksen Senate Building.
    Aloha Senator Wyden,
    If one were to create the perfect public servant from the best 
possible American materials, to become an official of our U.S. 
Department of the Interior, one would end up with Esther Puakela 
Kia'aina.
    Ms. Kia'aina is a keiki o ka'aina, Native Hawaiian, born and 
nurtured in Wai'anae, O'ahu, on Hawaiian Homestead land, and educated 
by the Kamehameha Schools, UCLA, the George Washington University Law 
School, and the John Hopkins University Nitze School of Advanced 
International Studies.
    Esther Kia'aina serves as First Deputy of the State of Hawai'i 
Department of Land and Natural Resources (DLNR). As Chair of the Hawaii 
Senate Committee on Water and Land, our kuleana (responsibility) is the 
DLNR. The purview of the Department is broad and complex. The 
Department is comprised of Bureau of Conveyances, State Parks, Forestry 
& Wildlife, Boating & Ocean Recreation, Aquatic Resources, Historic 
Preservation, Conservation & Coastal Lands and has more than 800 
employees, and is responsible for our water resources, endangered 
species, Hawai'i's historic and cultural sites, coral reefs, small boat 
harbors, fisheries management, dam safety, rock fall mitigation and 
natural disasters on our public lands. It encompasses 1.3 million acres 
of public land, 2 million acres of conservation land, and 3 million 
acres of ocean waters in the State of Hawai'i.
    Our Committee's oversight is committed to protect, conserve, and 
manage Hawai'i's unique and limited natural, cultural, and historic 
resources for the benefit of our communities and Ms. Kia'aina is a 
seasoned and proven leader who is able to bring people together to 
reach a pono (right) goal for all while maintaining the vision to 
protect, conserve and manage while her expertise in policy development 
and achievement has assisted the Department in keeping with its 
mission.
    Ms. Kia'aina is known for her scholarship, wisdom, and dedication 
to public service, having served for twenty years as Chief of Staff to 
Congressman Ed Case of Hawaii, and as Legislative Director to Guam 
Congressman, Robert Underwood. She also was Hawaii Senator Dan Akaka's 
Legislative Assistant. Furthermore, she held positions as the Chief 
Advocate for the Office of Hawaiian Affairs and as the Land Asset 
Manager for the Kamehameha Schools, Hawaii's largest private 
landholder. Ms. Kia'aina is a renowned expert on Native Hawaiian 
issues; geo-political and social issues in the U.S. Pacific Territories 
and Freely Associated States of Micronesia; and a wide array of other 
Asian and Pacific Islander issues
    The Democratic Party of Hawai'i thought so highly of her, that when 
our senior Senator Daniel K. Inouye passed away, they nominated her, 
along with then Lieutenant Governor Brian Schatz and Congresswoman 
Colleen Hanabusa to Governor Abercrombie, so that he might choose one 
of the three.
    To be in that category, one of three leaders in our state, picked 
by a wide cross section of the political leadership of Hawaii, 
demonstrates a quality of leadership that says to one and all, ``Here 
are our best and brightest. These talented leaders are who we trust to 
lead our state.''
    Hawaii is blessed with many bright, well educated, highly trained 
and motivated public servants, but even among our very best, Esther 
Kia'aina is rare, in fact, unique. She has a God given gift to be able 
to understand others and bring people together.
    There is no limit to her ability.
    With no reservation, no qualification nor question whatsoever, I 
wholeheartedly and completely recommend Ms. Esther Kia'aina to you for 
the position of Assistant Secretary for Insular Affairs for the U. S. 
Department of Interior.
    We, in Hawai'i, are immensely proud of her and know that she will 
make us all proud.
            Sincerely yours,
                              Senator Malama Solomon, Ph.D.
                                                             Chair.
                                 ______
                                 
                       Statement of Stuart Novick

    I am writing in support of Esther Kiaaina for the post of Assistant 
Secretary of Insular Affairs for the U..S. Department of the the 
Interior.
    I got to know Ms. Kiaaina when she was running for state office 
here. I found her to be delightfully down to earth, refreshingly well 
informed, and open minded. She spoke of our unique and besieged 
environment here in Hawaii with heart and with deep structural 
understanding of the roles of Federal and state governments.
    Ms. Kiaaina is a natural leader with a disarming sense of humor. I 
believe our country and our region will be very well served by her as 
Assistant Secretary.
                                 ______
                                 
                                University of Guam,
                                   Office of the President,
                     UOG Station, Mangilao, Guam, November 8, 2013.
Hon. Ron Wyden,
Chairman, Senate Committee on Energy and Natural Resources, U.S. 
        Senate, Washington, DC.
Re: Nomination of Esther Kiaaina for Assistant Secretary of Interior

    Dear Chairman Wyden
    I am writing this letter in strong support of the nomination of 
Esther Kiaaina as Assistant Secretary of Insular Affairs for the 
Department of Interior. This is a position that is of vital 
significance to the Nation as it is the main coordinator of Federal 
fund distribution and the policy arm of the Federal Government for the 
U.S. territories in the Pacific and Caribbean as well as the Freely 
Associated States of Palau, the Federated States of Micronesia and the 
Republic of the Marshall Islands. As President of the University of 
Guam and as the former Delegate from Guam from the 103rd to the l07th 
Congresses, I am very familiar with the activities of the Department of 
Interior and the needs and conditions of the insular areas.
    In the changing dynamics of the Asia-Pacific Region, it is vitally 
important that the United States maintains a strong presence in the 
island Pacific. The insular areas afford the United States the 
opportunity to projects its influence into Asia via a strong defense 
strategic presence and interests as well as the maintenance and support 
of strong economies and societies throughout the Western and South 
Pacific. A Federal policy that encourages growth and supports major 
initiatives in small island societies reflects the best of the American 
character. For historical reasons, for security reasons and for a 
prosperous and engaged Pacific future, it is important that our country 
provides assistance, guidance and structures for accountability for 
these Pacific entities which include fellow American citizens in 
American communities, American nationals and foreign countries which 
are in ``free association'' with the United States.
    The complexity of these relationships requires a knowledgeable and 
sensitive individual who understands the island and who is experienced 
in the requirements of the Federal Government. President Obama has 
found such a person in Esther Kiaaina. She is an islander, who was born 
and raised in Guam but is of Hawaiian ancestry. She is an experienced 
and very skilled participant in the Federal policymaking process 
through her work in Congress. She served as Chief of Staff to former 
Congressman Ed Case and for my office. She also worked for Senator 
Akaka for 9 years. During those years of service, she worked on 
projects and issues directly connected to the island Pacific, 
especially Guam, the Northern Marianas, American Samoa and the freely 
associated states. She also worked on legislation A U.S. Land Grant 
Institution accredited by the Western Association of Schools & Colleges 
The University of Guam is an Equal Opportunity Employer and Provider. 
and policy initiatives with committees of jurisdiction in both the 
Senate and the House on matters related to the insular areas.
    She has a reputation for being diplomatic when necessary and direct 
when it is required. She is extraordinarily gifted in understanding 
Federal policymaking, the legislative process and she fully appreciates 
the need for accountability and efficiency when it comes to the 
expenditure of Federal funds. From my personal experience, she can 
quickly grasp wide-ranging discussions from political trends to defense 
needs to scie ntific issues. She has the uncanny ability to make 
linkages and draw conclusions and formulate realistic plans of action 
from such conversations. I personally benefited from her abilities.
    More than just having the requisite professional skills for a 
position of this nature and the sensitivity of dealing with disparate 
island groups, she is an ethical professional who will always ensure 
adherence to the highest standards of professional conduct.
    I recommend her highly and I will be happy to discuss any dimension 
of this letter.
            Sincerely,
                                       Robert A. Underwood,
                                                         President.
                                 ______
                                 
                               Aha Moku Advisory Committee,
                                Honolulu, Hawaii, November 8, 2013.
Hon. Ron Wyden,
Chairman, U.S. Senate, Committee on Energy and Natural Resources 
        Washington, DC.
Re: Testimony IN SUPPORT of Esther Kiaaina to be an Assistant Secretary 
of the Interior (for Insular Areas)

    Aloha Chairman Wyden and Members of the U.S. Committee on Energy 
and Natural Resources,
    On behalf of the Aha Moku Advisory Committee, Hawaii State 
Department of Land and Natural Resources, we offer strong testimony in 
support of Esther Kia'aina's nomination to be an Assistant Secretary of 
the Interior for Insular Areas.
    The Aha Moku Advisory Committee (Aha Moku) is attached to the 
Hawaii State Department of Land and Natural Resources and is comprised 
of representatives of the eight main Hawaiian Islands. The members 
represent forty-three (43) specific and distinct natural resource 
districts throughout all of the islands. They are mandated to empower 
the indigenous peoples of Hawaii in natural resource issues and to 
integrate traditional and generational knowledge and resource 
methodology into existing state policy. This is a first of its kind of 
agency in the Hawaii State that is meant to bridge the gaps between 
government and native peoples, specifically in the area of natural 
resources which are very finite in an island ecosystem.
    Ms. Kia'aina is very well known and respected throughout the State 
of Hawaii for her leadership skills, her accessibility to all, and her 
ability to communicate effectively with all who she comes in contact 
with. She is extremely intelligent but more importantly, she can 
address issues on any level from a compassionate and informed position. 
She does her homework.
    We believe Ms. Kiaaina is the perfect person for this position 
because she is very familiar with and successful at working with many 
different kinds of people. The Aha Moku is spread over eight very 
different islands, with different Native Hawaiia historical and 
cultural perspectives that are often territorial in their thinking and 
actions. It is a challenge to keep the islands cohesive and productive. 
On top of that difficulty, there is a distinct reserve from these 
islands toward the government entities. Ms. Kiaaina is very successful 
in bridging these difficulties and generating consensus between all of 
the groups with a clear understanding of the different perspectives. It 
is a skill that is very much appreciated.
    On behalf of the Aha Moku Advisory Committee, we urge the 
confirmation of Esther Kiaaina as an Assistant Secretary of the 
Interior for Insular Areas.
            Respectfully yours,
                                         Leimana K. DaMate,
                                                Executive Director.
                                 ______
                                 
Prepared Statement of Esther Puakela Kia'aina, Nominee to be Assistant 
        Secretary for Insular Areas, Department of the Interior

    Aloha Chairman Wyden and members of the Senate Committee on Energy 
and Natural Resources. By way of introduction, the Association of 
Hawaiian Civic Clubs (AHCC) is currently comprised of sixty eight 
component clubs within the counties of Hawaii and in fifteen states on 
the continent. The first civic club was organized in 1918 by Prince 
Kuhio and a group of prominent Hawaiian men when Kuhio was a Delegate 
to the US Congress. Kuhio recognized the need for Native Hawaiians to 
become more involved in the passage of the Hawaiian Homes Act then 
before the Congress, and to further become engaged in the intricacies 
of Federal and local governments.
    From the first club ever organized our membership has grown and 
endured, chartering affiliates upon fulfillment of certain criteria. 
The AHCC is designated a 501c4 by the Internal Revenue Service, and in 
addition to quarterly meeting of Directors, there is an annual 
convention of councils, clubs and members. In 2012 the convention was 
held in Washington, D.C., in 2013 it will be on the Island of Kauai.
    The AHCC has known and worked with Esther Kiaaina for many years 
and always found her to be knowledgeable, articulate and focused. We 
are well aware that Ms. Kiaaina has the necessary education and broad 
governmental experience that eminently qualifies her to be the 
Assistant Secretary of Insular Areas. Her years as administrative staff 
in the Halls of Congress, in both House and Senate, as well as a keen 
understanding of legal, social and Pacific issues make her well 
equipped to be productive as a member of the US Department of the 
Interior, Insular Areas.
    Beyond the trappings of government, Ms. Kiaaina has superior people 
skills--in individual or group settings she has exhibited even-tempered 
patience while explaining complex issues in a simple, straight forward 
manner that promotes understanding. Of Native Hawaiian ancestry, Ms. 
Kiaaina is uniquely positioned to comprehend the world view of native 
peoples--of islanders on an ocean continent. Ms. Kiaaina is the ideal 
candidate for this position, and she has the unqualified support of the 
Association of Hawaiian Civic Clubs.
    Thank you for the opportunity to transmit our statement. Aloha.

                                    

      

</pre></body></html>
<script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script>